<html>
<title> - FEDERAL STRATEGIES TO END BORDER VIOLENCE</title>
<body><pre>[Senate Hearing 109-556]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-556
 
               FEDERAL STRATEGIES TO END BORDER VIOLENCE

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON TERRORISM, TECHNOLOGY
                         AND HOMELAND SECURITY

                                and the

      SUBCOMMITTEE ON IMMIGRATION, BORDER SECURITY AND CITIZENSHIP

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 1, 2006

                               __________

                          Serial No. J-109-60

                               __________

         Printed for the use of the Committee on the Judiciary



                    U.S. GOVERNMENT PRINTING OFFICE
28-338                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
           Michael O'Neill, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

      Subcommittee on Terrorism, Technology and Homeland Security

                       JON KYL, Arizona, Chairman
ORRIN G. HATCH, Utah                 DIANNE FEINSTEIN, California
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JOHN CORNYN, Texas                   JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               RUSSELL D. FEINGOLD, Wisconsin
LINDSEY O. GRAHAM, South Carolina    RICHARD J. DURBIN, Illinois
                Stephen Higgins, Majority Chief Counsel
                 Steven Cash, Democratic Chief Counsel
                                 ------                                

      Subcommittee on Immigration, Border Security and Citizenship

                      JOHN CORNYN, Texas, Chairman
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JEFF SESSIONS, Alabama               RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                CHARLES E. SCHUMER, New York
TOM COBURN, Oklahoma                 RICHARD J. DURBIN, Illinois
                 Reed O'Conner, Majority Chief Counsel
                   Jim Flug, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cornyn, Hon. John, a U.S. Senator from the State of Texas........     5
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     4
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........     1
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....    21

                               WITNESSES

Aguilar, David, Chief, Office of Border Patrol, U.S. Customs and 
  Border Protection, Department of Homeland Security, Washington, 
  D.C............................................................     7
Bonner, T.J., National President, National Border Patrol Council, 
  American Federation of Government Employees, AFL-CIO, Campo, 
  California.....................................................    36
Charlton, Paul, U.S. Attorney, District of Arizona, Phoenix, 
  Arizona........................................................    11
Dever, Larry A., Sheriff, Cochise County, Arizona................    30
Durham, Lavoyger, Manager, El Tule Ranch, Falfurrias, Texas......    34
Forman, Marcy M., Director, Office of Investigations, U.S. 
  Immigration and Customs Enforcement, Department of Homeland 
  Security, Washington, D.C......................................    13
Jernigan, A. D'Wayne, Sheriff, Val Verde County, Texas...........    32

                       SUBMISSIONS FOR THE RECORD

Aguilar, David, Chief, Office of Border Patrol, U.S. Customs and 
  Border Protection, Department of Homeland Security, Washington, 
  D.C., prepared statement.......................................    49
Bonner, T.J., National President, National Border Patrol Council, 
  American Federation of Government Employees, AFL-CIO, Campo, 
  California, prepared statement.................................    61
Charlton, Paul, U.S. Attorney, District of Arizona, Phoenix, 
  Arizona, prepared statement....................................    70
Dever, Larry A., Sheriff, Cochise County, Arizona, prepared 
  statement......................................................    79
Durham, Lavoyger, Manager, El Tule Ranch, Falfurrias, Texas, 
  prepared statement.............................................    81
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California, letter and attachment..............................    84
Forman, Marcy M., Director, Office of Investigations, U.S. 
  Immigration and Customs Enforcement, Department of Homeland 
  Security, Washington, D.C., prepared statement.................    87
Jernigan, A. D'Wayne, Sheriff, Val Verde County, Texas, prepared 
  statement and attachments......................................   104
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona, letter..   124
Laredo's Missing, William C. Slemaker, Spokesperson, Laredo, 
  Texas, letter..................................................   125
South Texas Coastal Sheriffs' Alliance, T. Michael O'Connor, 
  Sheriff, Victoria County, Texas, and Earl Petroupolis, Sheriff, 
  Refugio County, joint statement................................   127
Tohono O'odham Nation, Vivian Juan-Saunders, Chairwoman, Sells, 
  Arizona, statement and letter..................................   130


               FEDERAL STRATEGIES TO END BORDER VIOLENCE

                              ----------                              


                        WEDNESDAY, MARCH 1, 2006

                                       U.S. Senate,
        Subcommittee on Terrorism, Technology and Homeland 
Security, and Subcommittee on Immigration, Border Security 
        and Citizenship, of the Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittees met, pursuant to notice, at 9:02 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Jon Kyl, 
Chairman of the Subcommittee on Terrorism, Technology, and 
Homeland Security, presiding.
    Present: Senators Kyl, Cornyn, Sessions, and Feinstein.

  OPENING STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE 
                        STATE OF ARIZONA

    Chairman Kyl. Welcome to this joint hearing between the 
Subcommittee on Terrorism, Technology and Homeland Security, 
and the Subcommittee on Immigration, Border Security and 
Citizenship, of the Senate Judiciary Committee.
    I am Senator Kyl. Senator Feinstein and I are the Chairman 
and ranking member, respectively, of the first Subcommittee, 
and Senator Cornyn and Senator Kennedy are Chairman and ranking 
member of the other Subcommittee, and I am told will be here 
shortly.
    A couple of housekeeping matters. We have got a couple of 
different panels here and we are supposed to be done by eleven 
o'clock, when we have a joint session of Congress with Silvio 
Berlusconi. But we have also been advised that at ten o'clock 
there is a final passage vote on the PATRIOT Act, which is a 
good thing, but it does disrupt our hearing. That vote will be 
held open for us, but in some way we will have to play musical 
chairs here. If I leave to vote, I will turn the gavel over to 
Senator Feinstein or we will figure out a way to deal with 
that.
    So since the others will be arriving, let me begin with my 
statement. I want to begin by thanking our distinguished 
witnesses for joining us today to examine the problem of 
violence on the southern border of the United States.
    Paul K. Charlton has served as the United States Attorney 
for the District of Arizona since 2001, when he was appointed 
by the President and confirmed by the Senate for that position. 
In his 16 years as a career prosecutor representing the United 
States and the citizens of Arizona, Mr. Charlton has become 
very familiar with the smugglers and criminal networks that are 
responsible for the increasing levels of violent crime along 
the border.
    David V. Aguilar assumed the position of Chief of the 
Office of the Border Patrol in 2004. He has served with the 
Border Patrol for over 26 years and spent a good portion of 
that time on the border in Arizona and Texas. He will testify 
on incursions into United States territory by what appear to be 
Mexican military units supporting drug traffickers and on the 
dangers encountered by Border Patrol agents everyday.
    Marcy M. Forman is Director of the Office of Investigations 
for U.S. Immigration and Customs Enforcement, sometimes 
referred to as ICE. Ms. Forman began her 26-year law 
enforcement career with U.S. Customs. She presently oversees 
5,600 special agents, whose mission is to protect Americans 
from threats arising from the movement of people and goods into 
the United States. She will testify about the Federal and State 
partnerships that are employed to combat criminal organizations 
on the border.
    Our second panel of witnesses includes Larry Dever. He is 
Sheriff of Cochise County, Arizona, and a good friend. The 
people of Cochise County first elected him as their sheriff in 
1996, following a 20-year career working with Cochise County 
law enforcement. Sheriff Dever will share his observations on 
the dangers that smugglers pose to Americans and to aliens 
illegally entering the United States.
    Allen D'Wayne Jernigan is the Sheriff of Val Verde County, 
Texas. He was first elected to that position in 1996 and is a 
40-year law enforcement veteran, a member of the Texas Border 
Sheriffs Coalition. Sheriff Jernigan will testify about the 
drug cartel violence he has witnessed in Texas.
    Lavoyger J. Durham is the manager of El Tule Ranch in South 
Texas, located about 75 miles north of the Mexican border. Mr. 
Durham has managed El Tule Ranch for 16 years and in that time 
has directly experienced the miseries arising from human 
smuggling across the ranch.
    Finally, T.J. Bonner is President of the National Border 
Patrol Council, which represents more than 10,000 front-line 
Border Patrol employees. Mr. Bonner is a 27-year veteran of the 
Border Patrol. He is familiar with Mexican military incursions 
into the United States and with the causes of increasing 
violence on the border.
    In calling this joint hearing, Senator Cornyn and I wanted 
to reacquaint the public and our Senate colleagues with the 
dire consequences that have resulted from the Federal 
Government's failure to control the southern border of the 
United States. While the Senate is engaged in discussing 
comprehensive immigration reform, we want to remind our 
colleagues that no reform of the immigration system will be 
successful unless Congress makes a definitive commitment to 
ensure that the agencies responsible for interdicting illegal 
aliens and contraband have the resources they need to get the 
job done.
    Our open border with Mexico has permitted a historically 
unprecedented number of foreign nationals from over 120 
countries to enter the United States illegally. While 
recognizing that the majority of illegal migrants to our 
country only come here to seek better wages and a better 
standard of living, we cannot ignore the fact that at least 10 
percent of the aliens apprehended along the border are 
criminals.
    In the last five months, the Border Patrol has arrested no 
less than 42,722 aliens with criminal records on the border, 
and that is just in 5 months--over 42,000. Among them were 
6,770 felons, 148 persons wanted in connection with a homicide, 
42 associated with kidnapping, 164 associated with a sexual 
assault, 298 associated with robbery, 1,957 wanted for assault, 
and 4,161 connected with drug crimes.
    DHS recently advised us that about 139,000 of the 1.1 
million people apprehended on the border in 2005 were criminal 
aliens seeking to illegally reenter the United States. The U.S. 
Government Accountability Office reported last year that 
criminal aliens made up nearly one-third of the Federal prison 
population, and that the number of aliens incarcerated jumped 
from 42,000 in 2001 to 49,000 in 2004. In 2003, State prisons 
held about 74,000 criminal aliens. Our Federal and State 
governments have expended hundreds of millions of dollar 
incarcerating them.
    I share the belief that a temporary worker program will 
reduce some of the pressure along the southern border because 
those coming here for work will have a legal avenue to do so 
and will not resort to hiring violent smugglers to get them 
across. But you can be sure that the hundreds of thousands of 
criminal aliens who will be barred from participating in any 
temporary worker plan will continue trying to reenter the 
United States, as will the millions of hyper-violent drug 
cartels located just across the border. We must have the 
resources in place to defeat them.
    I have frequently heard the argument that the United States 
cannot stop the flow of illegal immigrants and contraband 
across the border. That is wrong. First, while we have 
increased the presence of Border Patrol agents on the border, 
we have never had nearly enough of them. In 2005, the Border 
Patrol had 11,268 agents patrolling over 9,000 miles of U.S. 
border. That does not even compare favorably with the city of 
New York, which employs 39,110 police officers to patrol just 
its five boroughs.
    Until we have an adequate force of Border Patrol agents to 
protect our borders and have equipped them with the technology 
and infrastructure they need to accomplish the mission, I will 
not buy into the notion that control of our borders is beyond 
our capability.
    Second, the United States has been slow to make a concerted 
effort to place strategic fencing and vehicle barriers along 
the border to prevent narcotraffickers, human smugglers and 
illegal aliens from simply crossing the border at will. Much of 
our border with Mexico is simply delineated by a rusty strand 
of barbed wire that has beaten into the dirt by thousands of 
illegal crossers.
    We know that fences work. The fence in the San Diego sector 
has dramatically reduced illegal immigration and drug 
trafficking across the sector. We must expand our strategic use 
of pedestrian fences and vehicle barriers around urban areas 
and more remote locations that we know are being used by 
smugglers. This will also help prevent confusion about the 
location of the border and prevent Mexican military units and 
law enforcement officers from inadvertently entering the United 
States.
    Finally, I believe that the United States, like other 
nations, has both the obligation and the right to control its 
borders. Indeed, it is difficult to imagine a more fundamental 
primary role of government. The Federal Government alone is 
responsible for maintaining the integrity of the immigration 
system and for ensuring that foreign nationals who would harm 
our citizens and residents are denied entry. That is a great 
responsibility and we Members of Congress must live up to it.
    Senator Feinstein.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman. I 
would like to thank you and Senator Cornyn for holding this 
Subcommittee meeting, and I would also like to thank our 
witnesses and I look forward to their testimony.
    I would agree that there are a number of alarming trends we 
have got to address. In response to the increased policing of 
our borders, smugglers are becoming evermore sophisticated and 
dangerous. Last week, in San Diego, I visited the site of an 
unbelievable tunnel. That tunnel was eight football fields 
long, ran half a mile from a new, bright, but kept-vacant 
warehouse in the United States under the border to a warehouse 
in Mexico.
    It went down 60 to 80 feet. It was ventilated, had 
electricity, and contained a rail system to ferry contraband 
back and forth between our countries. I think at the time the 
Border Patrol found it, it had 2,000 pounds of marijuana at one 
end and 300 pounds at the other. So that is pretty well-defined 
evidence as to what it was used for.
    Now, this is just one of 40 border tunnels discovered in 
the last 5 years, all but one of them on the southern border. 
Senator Kyl and I have prepared and will introduce legislation 
later this afternoon to help curb this practice, and I hope 
that we will act on this legislation as soon as possible.
    Above ground, smugglers are also becoming more and more 
organized, to the extent that we have seen reports of outlaws 
with military-style uniforms and equipment and even moving in 
military-style formations. Violence against law enforcement 
agents and local residents is on the rise, and so too is 
illegal immigration of aliens other than Mexicans, many from 
countries of special national security interest. The OTM issue, 
which I know Senator Cornyn has been involved in, and I have as 
well, has more than tripled in the last 2 years.
    Two weeks ago, I met with three of our counterparts in the 
Mexican Senate--Senators Hernandez and Osuna, of the Mexican 
Senate's Foreign Relations Committee, and Senator Cardenas, the 
vice president of the Mexican Senate. I was really very pleased 
by their attitude. They shared my concern about illegal 
activity on the border. They looked forward to working with the 
Border Patrol. They would like to see a new joint effort 
formed, and they indicated that the uniforms worn on our side 
of the border were not official Mexican uniforms, but were most 
likely cartel-designed and inspired uniforms. I very much 
welcome their assurances and I am pleased with the concrete 
advances we have seen in cooperation with the Mexican 
government.
    Senator Kyl, I intend to send the President of Mexico and 
these Senators our legislation in hopes that Mexico will then 
introduce legislation making it a Federal Mexican crime to 
build a tunnel, just as our legislation would make it a Federal 
American crime. I didn't know that we don't have a Federal 
criminal penalty for building one of these tunnels, and so 
shortly I hope that we will.
    In November of last year, the Mexican Supreme Court 
revisited a previous decision limiting the extradition of 
criminals wanted by the United States. This led last month to 
the capture and extradition of Jorge Aroyo Garcia in Michoacan. 
Now, this gentleman--he is not really a gentleman, he is a 
killer--has been wanted since 2002 for the murder of Los 
Angeles County Deputy Sheriff David March. This is indeed good 
news, because it had become almost standard operating procedure 
that if a Mexican national killed a law enforcement officer in 
this country, they headed across the border and by and large 
they were not then subject to extradition. This is now 
beginning to change and I would like to commend the Mexican 
government and the supreme court for taking this action. Again, 
I thank the panelists and I look forward to your testimony.
    Chairman Kyl. Thank you, Senator Feinstein.
    Senator Cornyn.

STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Chairman Cornyn. Thank you, Senator Kyl. As you know, our 
two Subcommittees have done a great deal of work examining all 
aspects of our Nation's border security and immigration system. 
In past hearings, and in this one as well, the information that 
we have gathered will play an important role in our upcoming 
debates in the U.S. Senate on border security and immigration 
reform.
    I would like to express my gratitude to the numerous 
ranchers and law enforcement officials who traveled quite a 
long way to join us today. It is good to see you here, and I 
know that what we will be discussing here will have a 
significant impact on your lives and I appreciate your 
presence.
    Today's hearing comes on the heels of a well-publicized 
encounter--actually, a couple of them--in Texas between law 
enforcement officers and organized drug dealers. Capturing this 
incident on video allowed everyone to see the dangers 
associated with the Federal Government's continued failure to 
control our borders.
    While this highly publicized encounter brought attention to 
the problem, border violence has long plagued our Federal and 
State law enforcement officers. In addition to this recent 
incident, law enforcement officers along the border routinely 
seize guns, ammunition, drugs and illegal aliens. Additionally, 
Border Patrol agents face hundreds of assaults each year. These 
range from shootings to rock-throwings to attempts to run them 
over. We will hear from tenured State and Federal law 
enforcement officers about strategies they believe will address 
these problems.
    Unfortunately, however, this danger is no longer limited to 
our law enforcement personnel. Today, we will also hear from 
Lavoyger Durham, a longtime Texas rancher. Mr. Durham has lived 
and worked along the border for decades. He will describe to us 
how, as illegal immigration has increased, so too has the 
danger, the threats and the violence to ordinary citizens who 
happen to live and work in the border region. As a matter of 
fact, movement across our border has existed as long as we have 
had a border, but what I am told by my constituents in South 
Texas and the Rio Grande Valley is that the nature of illegal 
immigration has changed completely, given Mexico's status as a 
transit point for international human smuggling. The situation 
is unacceptable and Congress must act to do everything within 
its power to end it now.
    Combatting border violence will take a concerted and 
thoughtful effort by all parties involved. That is why I am 
disappointed that the Department of Homeland Security refused 
my request to send a witness to discuss how the Department of 
Homeland Security receives law enforcement support from Joint 
Task Force North. I believe it is important that the Federal 
Government use all of its resources, no matter what the Federal 
agency is, to gain control of the border.
    Joint Task Force North in El Paso is required to support 
law enforcement efforts designed to deter drug trafficking and 
alien smuggling. The working relationship between the 
Department of Homeland Security and Joint Task Force North is a 
critical component to the Federal strategies designed to combat 
border violence.
    There are no simple solutions. The United States shares 
almost 2,000 miles of border with Mexico and roughly 4,000 
miles with Canada. My State alone accounts for the majority of 
the southern border, sharing about 1,285 miles, or 65 percent, 
of the southern border. In 2004, the Border Patrol apprehended 
1,139,000 aliens along the southern border. In 2005, that 
number grew to 1,171,000, and this year the number has already 
reached 408,000 and it is only March 1.
    I might add, Senator Kyl and Senator Feinstein, I am told 
by my visits to the border--and you may have experienced the 
same thing--that our Border Patrol and law enforcement 
personnel, notwithstanding the numbers that they have detained, 
maybe get one out of every three or one out of every four 
people that attempt a crossing.
    A problem of this magnitude will not be solved by bumper 
sticker slogans. The Federal Government has ignored our porous 
border for decades--I should say ignored the necessary 
resources to deal with our border for decades, and to restore 
law and order will require comprehensive enforcement efforts 
that focus not just at the border, but also on interior 
enforcement in holding employers accountable for illegal 
hirings.
    The legislation that Senator Kyl and I have introduced 
tackles this problem on every front. It begins by increasing 
the number of the most valuable asset we have, and that is our 
Border Patrol agents. We also call for the use of physical 
barriers in high-trafficked areas and the use of up-to-date 
technology, like unmanned aerial vehicles and ground sensors 
that today detect movement across the Syrian border into Iraq. 
We ought to be deploying all of the technology that is 
available to the Federal Government that the taxpayers have 
already paid for to assist our border protection officials. 
This combined approach controls the border by creating a 
virtual fence. Our legislation also streamlines deportation 
proceedings, requires foreign countries to do their part in 
combatting illegal entry, and punishes employers who knowingly 
hire illegal aliens.
    It is not possible to separate the increase in border 
violence and incursions from our broken immigration system. 
When half a million illegal aliens can come across our border 
each year, undetected and not stopped, it is no wonder that 
criminals and drug traffickers believe that they are somehow 
immune from the law. Unless and until Congress addresses the 
immigration problem across the board, we will continue to 
experience an unacceptable level of violence along the border.
    Tomorrow, the full Judiciary Committee will begin the 
debate on border security and immigration reform. It won't be 
an easy process, but there are few issues of greater 
significance and greater importance than securing our borders. 
While there is not yet a consensus on how to address the 
millions of illegal aliens who already live in the United 
States, there is uniform agreement in the Congress that the 
Federal Government must do what it takes to achieve border 
security and to end border violence.
    I look forward to today's testimony and thank each of the 
witnesses for your contribution.
    Chairman Kyl. Thank you, Senator Cornyn.
    Senator Feinstein has some documents to be inserted in the 
record.
    Senator Feinstein. Thank you, Mr. Chairman. If I may, I 
would like to enter into the record my letter of February 14 to 
President Vicente Fox asking for his personal attention to the 
matter of the individuals dressed in military uniforms who have 
penetrated the border, and also a copy of the fact sheet 
produced by the Mexican Government on their investigation of 
this incident and incidents in which they conclude that the 
uniforms, insignia, armament and vehicles that appear on the 
initial video do not correspond to those utilized by the Armed 
Forces of Mexico. It goes on to say that the Under Secretary of 
North American Affairs, Mr. Gutierez, and Ambassador Icasa, the 
Mexican Ambassador, have recently met at the Embassy in 
Washington with officials of our Government to discuss this 
matter.
    If I might enter those both in the record?
    Chairman Kyl. Without objection. And a letter that I have 
written to the Secretary of State will be admitted as well, 
without objection.
    Let's begin with the first panel, and this is somewhat 
arbitrary, but I think I would like to start with Chief Aguilar 
and then U.S. Attorney Paul Charlton and conclude with Marcy 
Forman, unless the three of you think that is not a good idea.
    All right. Go ahead, Chief Aguilar. Thank you.

  STATEMENT OF DAVID AGUILAR, CHIEF, OFFICE OF BORDER PATROL, 
  U.S. CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND 
                   SECURITY, WASHINGTON, D.C.

    Mr. Aguilar. Good morning, Chairman Kyl, Chairman Cornyn, 
Ranking Member Feinstein. It is a pleasure to be here this 
morning, and especially with our partner from ICE, Marcy 
Forman, and a true ally, friend and absolutely a great partner 
in Arizona, Paul Charlton, U.S. Attorney.
    It is an honor and privilege to be here today to testify on 
behalf of the men and women of Customs and Border Protection in 
DHS. I am especially pleased to be here today to testify on our 
shared interest of security of our Nation, safety of our 
communities, and the safety of our officers as they patrol the 
borders of our country.
    I welcome the opportunity to testify on the subject of 
border violence and threats that our officers face in carrying 
out their duties and efforts in securing our country's borders 
on a daily basis. One of the things that I think we are very 
familiar with is the dynamics of illegal immigration and 
illegal narcotics trafficking, such that criminal organizations 
typically seek out border areas that will support their illegal 
cross-border smuggling efforts. The organizations will look to 
base their staging, stashing and jump-off points into the 
United States at locations that have infrastructure to support 
their smuggling activities. Smugglers have historically 
exploited urban and populated areas along our border with 
Mexico.
    While we have made great strides in increasing the levels 
of control along our border urban areas, we are continuing to 
resource and incrementally gain rate of control of the rural 
areas of our border with Mexico. Tactical infrastructure, 
personnel and technology become a much greater need and force 
multiplier.
    The rural areas of our borders pose unique challenges. 
Vastness, remoteness, accessibility and mobility are but a few 
of the major challenges that we face in patrolling and 
protecting our Nation's rural border areas. A trend that has 
developed as we continue to expand our control of the border is 
a dramatic increase in border violence against our agents. 
Violence has always been a part of the environment in which the 
men and women of the United States Border Patrol operate and is 
recognized as an inherent part of securing our Nation's 
borders.
    In fiscal year `05, we experienced 778 assaults against our 
officers, a 108-percent increase from the previous year. 
Through January 31 of this fiscal year, we experienced already 
200 assaults against our officers. I personally attribute this 
increase in violence to the fact that the Border Patrol's 
achievements in gaining greater and expanded control of our 
borders has resulted in a greater reluctance of entrenched 
criminal organizations to give up areas in which they have 
either historically operated in the past or they are reluctant 
to give up areas where they have reestablished themselves as a 
reaction to our increased urban enforcement area efforts that 
have impacted upon them.
    Our border with Mexico is long, it is vast, and in many 
cases a very remote, sometimes unmarked or poorly delineated 
border. We continue to increase our deployments in remote areas 
to counter and, resources allowing, anticipate criminal 
organizations' movements. In the last several weeks, as several 
of you have spoken about, we have seen reporting on past 
incursions attributed to government of Mexico entities. The 
reality along our border with Mexico is that there have been 
incursions into Mexico, incursions by both the Border Patrol 
into Mexico and incursions into the United States by government 
of Mexico entities.
    Border incursions attributed to government of Mexico 
entities into the United States have occurred in both our urban 
and rural areas of operation. This is not a new phenomenon, and 
while it does occur, it is a situation that is not taken 
lightly and it is of absolutely high concern to DHS and CBP. We 
recognize these incidents as having a high potential for 
serious consequences. In 2001, we recorded the highest number 
of these types of incursions, a total of 42. Last fiscal year, 
we recorded 19. This fiscal year, we have already recorded 
seven incursions through January 31.
    We have worked with and urged the government of Mexico in 
the strongest terms and at the highest levels to investigate 
and do everything possible to mitigate and keep these incidents 
from occurring. We have received assurances from the government 
of Mexico that they too take these incidents very seriously, 
recognize the potential for serious international consequences, 
and that they are taking definitive actions to address them.
    As examples, in the area of Fort Hancock, Texas, where we 
saw the crossing incident of January 23rd, we have now seen 
Mexican soldiers, Mexican military and PGR representatives 
working to deter that kind of activity from happening again. 
Our chief patrol agents are reaching out and meeting with their 
Mexican military counterparts at the general rank levels to 
better coordinate enforcement efforts and responsibilities 
along our Nation's borders.
    The Federal Mexican Police Force has deployed approximately 
300 officers in an effort to curtail border violence and 
illegal activities from Tijuana to Mexicali, and the PGR is now 
working in coordination with the Border Patrol sector chiefs in 
San Diego, Laredo and Rio Grande Valley sectors to target 
prosecution and deterrence efforts along our Nation's borders.
    We have seen definitive actions taken on the part of the 
Mexican government to address these international concerns. 
Now, the one thing that I will state is that I do not want to 
in any way minimize the seriousness of each and every one of 
these incursion incidents, but I also do not want to leave the 
impression that our borders are under siege by government of 
Mexico entities or individuals attempting to pass themselves 
off as government of Mexico representatives.
    In those instances where these individuals have been 
observed engaged in illegal activity, regardless of their 
apparel, regardless of their equipment or their motor 
transportation, they are plain and simply criminals. They are 
criminals that both countries must do everything we can to stop 
them from exploiting our borders, making our communities 
unsafe, and detracting from our ability to protect America's 
borders from those that would bring harm to our homeland.
    I want to thank the Subcommittees specifically for not 
allowing the high media profile of recent incursion incidents 
to overshadow the seriousness and the nature and threats our 
front-line officers and agents face on the border in the form 
of rockings, assaults and shootings on an ongoing basis.
    I understand that at this time you have graciously asked us 
to show a couple of slides relative to the types of assaults 
that our officers get. I would like to refer to a couple of the 
screens. I believe there is one for the audience and one up 
here.
    This first one speaks to the increase of assaults on our 
Border Patrol officers and our officers at the ports of entry: 
in fiscal year `04, 374; in fiscal year `05, 778. At our ports 
of entry, it went from 129 to 165. This is at the ports of 
entry.
    Go to the next one, please.
    This graph basically shows the elevated nature of the 
assaults against our officers; already in fiscal year 2006, at 
the end of January, 200.
    Go to the next one, please.
    This one depicts the type of assaults that our officers 
suffer: rocking assaults, 98; physical assaults, 48. Vehicle 
assaults where they are being overrun, firearms and weapons and 
other types of assaults that happen on a daily basis out there 
amount to 18.
    Go to the next one.
    This is not a pretty picture. The upper left-hand corner is 
the backside of an officer, lower back--you will see the 
bruising there--that was hit by a rock. This is in San Diego. 
The middle section depicts the inside of a vehicle of an 
officer in Douglas, Arizona, that took a rock through the 
driver's side window. You can see the blood, you can see the 
broken window and the damage done.
    The lower left-hand side corner is going to be what we now 
refer to as a Molotov rock. It is a rock wrapped in cloth, 
soaked in some kind of fuel, lit and chunked at our officers. 
This is happening in San Diego, in El Centro sectors, and in El 
Paso.
    The middle section is one of our officers that took a rock 
to the side of his head, a very serious situation. And the last 
one in the lower right-hand corner is an incident that happened 
the latter part of January in El Paso sector, Deming Station, 
25 stitches to take that cut and suture it up.
    Now, the reason we put this forth--go to the next one, I 
believe--the reason we put those slides up is because there 
needs to be an understanding that when our officers take 
actions that result in very serious consequences, the American 
public, I think, needs to understand the environment in which 
we operate.
    This one here is the inside of a vehicle, one of our Border 
Patrol vehicles. Those are trajectory rods. You will see that 
they go into the passenger side of our Border Patrol vehicle. 
Had we had a Border Patrol agent as a passenger, that officer 
would not be with us today.
    The middle section is the actual x-ray of the leg of one of 
our officers that was shot in June, in Nogales, Arizona, 
Senator Kyl--two officers shot, very serious, still going 
through rehabilitation, both are, and we are hoping to get them 
back on duty within a year or so.
    The others depicts rounds, trajectory rods, shots at our 
vehicles; in one incident in El Centro, California, 23 rounds 
taken from an AR-15 into our vehicles. Luckily, our officer was 
able to be pulled out of that area. So, again, it just shows 
the sense of the situation as to what our officers are facing 
out there on a daily basis.
    Technology, tactical infrastructure and personnel are the 
answers to securing our Nation's borders. The Secretary 
recently announced DHS's Security Border Initiative, now known 
as SBI Net. I am confident that this innovative and, as Senator 
Cornyn pointed out, comprehensive approach is going to be what 
brings us a solution that we are looking for.
    I thank the Subcommittees and would look forward to any 
questions that you might have of me.
    [The prepared statement of Mr. Aguilar appears as a 
submission for the record.]
    Chairman Kyl. Chief Aguilar, thank you very much for that 
very definitive testimony. We appreciate it.
    U.S. Attorney Paul Charlton.

STATEMENT OF PAUL CHARLTON, UNITED STATES ATTORNEY, DISTRICT OF 
                   ARIZONA, PHOENIX, ARIZONA

    Mr. Charlton. Chairman Kyl, Chairman Cornyn, Ranking Member 
Feinstein, good morning. My name is Paul Charlton. I am the 
United States Attorney for the District of Arizona and I am the 
Chairman of the Attorney General's Advisory Committee for the 
Border and Immigration Subcommittee, composed of a group of 
United States Attorneys from around the country that advise the 
Attorney General on border-related issues.
    Thank you for the opportunity to testify this morning, and 
thank you as well for bringing attention to this very serious 
subject of border violence. As you know, it is an issue that 
affects residents from Brownsville to San Diego.
    As the President said in his speech in November of last 
year, in Tucson, Arizona, securing our border is essential to 
securing the homeland. Arizona has a 370-mile border with the 
Republic of Mexico, and in fiscal year 2005 approximately 
577,000 illegal aliens were apprehended by the Border Patrol. 
That means that almost 50 percent of all illegal aliens who 
were apprehended by the Border Patrol in the United States were 
apprehended in Arizona alone.
    Chief Aguilar has already testified to the growing 
increases in assaults that are taking place nationwide on 
Border Patrol agents. I would like to, if I may, focus on the 
District of Arizona, an area that I am most familiar with, and 
begin with the most serious of offenses, homicides, and the 
most serious and the most vivid of those that I remember is the 
August 2002 killing of Kris Eggle, a National Park Service 
ranger who was a scholar, an athlete, an Eagle Scout, the son 
of a school teacher, the son of a Vietnam War veteran, and who 
was serving his country defending the border in August of 2002 
when narcotraffickers crossed the border and executed him. We 
recently obtained the third in a series of convictions against 
the killers of Alexander Kirpnick, a Border Patrol agent who 
died defending the border in Arizona. He himself was an 
immigrant to this country.
    But recently we have seen a more disturbing trend, and that 
is a greater degree of sophistication and development on behalf 
of those individuals who would harm or kill our Federal law 
enforcement officers defending the border. Chief Aguilar just 
referred to and showed you a picture of an injury that took 
place in June of 2005 with a Border Patrol agent. That even 
took place near the area of Nogales, Arizona, Senator Kyl, I 
know an area that you are very familiar with.
    Two Border Patrol agents were patrolling there when they 
believed that they saw a stash of narcotics. Two shooters using 
high-powered rifles shot at and wounded both of those Border 
Patrol agents. What was sophisticated and more developed about 
this event was that the shooters used extraordinary accuracy 
and showed some degree of trade craft as they retreated from 
the area, covered each other and went to their escape across 
the other line and back into Mexico. That event repeated itself 
almost exactly last month, although fortunately this time the 
Border Patrol agents escaped without injury.
    Now, assaults and violence don't necessarily have to 
involve Federal officers as victims, nor do they have to 
involve the use of firearms. Last February, we obtained the 
convictions of two individuals, Jose Luis Zepeda-Cruz, a 
smuggling guide, and Jimir Valle Martinez, who was taking a 
load of 15 illegal aliens through the small town of Sierra 
Vista in a truck at extraordinary rates of speed, sometimes 
surpassing 100 miles per hour.
    And as they were going through this town of Sierra Vista, 
they ran a red light and crashed directly into a vehicle 
containing newlyweds and they killed the newlyweds. They killed 
three of the illegal aliens who were in the vehicle. They 
killed the unborn child of another illegal alien. These 
smugglers think nothing of the individuals that they are moving 
into the United States. They care nothing for the lives of the 
Federal officers. They care nothing for innocent bystanders.
    Now, we have also seen another disturbing trend that has 
been developing, and that is what is called in Spanish 
bajalores; that is, individuals who will take part in a rip-off 
or a hijacking of a rival smuggling organization. The most 
dramatic event that I can remember took place in November of 
2003, when rival smuggling groups along Interstate 10 between 
Tucson and Phoenix attempted to steal a load of illegal aliens 
one from the other in a running gun battle that covered three 
miles. During that event, four individuals were killed and a 
number of innocent bystanders were injured.
    Again, it doesn't have to be Federal agents, it doesn't 
have to be innocent bystanders. These smugglers care nothing 
for anybody, including the aliens they move into the United 
States. We have a number of cases right now that we are 
processing in which smugglers assaulted and threatened to kill 
the illegal aliens that they brought into the United States and 
were holding hostage. We have cases in which these individuals 
were assaulted with weapons, cut, had their teeth kicked in, or 
were raped. Smugglers are on a daily basis violently and 
ruthlessly exploiting human beings.
    What are we doing in response? We are working very closely 
with our Federal, State, local and tribal law enforcement 
partners. We are integrally involved in the Arizona Border 
Control Initiative, an initiative led by the Border Patrol, but 
involving all levels of law enforcement, to attack the problem 
of illegal immigration, smuggling of narcotics and human 
beings, and the violence that is associated with those crimes.
    We hope to soon stand up a border enforcement security task 
force which seeks to duplicate the success of Operation 
Blackjack that took place in Laredo, Texas, where a diverse 
group of law enforcement officials sought to diminish cross-
border crime.
    We have a zero-tolerance policy as it relates to assaults 
on Federal officers. Simply put, if you assault a Federal 
officer, you will be prosecuted. And we are seeking to focus 
our resources on those most violent offenders, hostage-takers. 
In 2002, we prosecuted one case. In 2003, we prosecuted six 
cases. In 2004 and 2005, we now have 32 hostage-taking cases 
against these most violent offenders with multiple defendants.
    Senators, thank you again for this opportunity to bring 
this matter to your attention and for your interest in this 
important issue. I stand ready to answer any questions you may 
have.
    [The prepared statement of Mr. Charlton appears as a 
submission for the record.]
    Chairman Kyl. Thank you very, very much, Paul Charlton.
    And now Marcy Forman.

       STATEMENT OF MARCY M. FORMAN, DIRECTOR, OFFICE OF 
   INVESTIGATIONS, U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT, 
       DEPARTMENT OF HOMELAND SECURITY, WASHINGTON, D.C.

    Ms. Forman. Thank you and good morning, Chairman Cornyn, 
Chairman Kyl, Ranking Member Feinstein. Thank you very much for 
having me. I am the Director of ICE in Washington, D.C. It is 
an honor for me to testify before you to discuss how ICE 
combines its immigration and customs authorities to attack the 
violence on the border.
    Before coming to Washington, I spent nearly 19 years in 
Texas, even though with my New York accent you may not believe 
that, but 19 years in Texas supervising international drug 
smuggling and money laundering investigations. During this 
time, I supervised the major drug money laundering 
investigation involving the former deputy attorney general from 
Mexico which revealed that he had taken $9 million in drug 
bribes.
    In addition, I oversaw some of the largest drug 
investigations on the border while I was in Houston, Texas, one 
called Operation Produce that resulted in the conviction of 16 
drug smugglers, the seizure of over 1,700 kilos of cocaine and 
over 5,500 kilos of marijuana.
    During my time in Texas, I thought I saw a lot, but what we 
are seeing today along the border is much worse and much more 
violent. In response, the Department of Homeland Security 
established the Border Enforcement and Security Task Force, 
simply known as BEST. We have made Laredo, Texas, ground zero 
for our fight against the smugglers, both human and drug 
smuggling. Through BEST, we partner with Federal, State and 
local law enforcement officials to bring their authorities and 
expertise to the table.
    We focus our efforts by utilizing intelligence to drive and 
prioritize our targets. Just last week, I was in Laredo, Texas, 
and saw firsthand how ICE agents, along with ATF and FBI 
agents, work side by side with the Laredo Police Department in 
the BEST task force to combat this violence.
    Our work is already paying off. On January 26, BEST task 
force agents conducted a series of raids after one of the 
targets sold a fully automatic AK-47 assault rifle and a small 
amount of cocaine to an undercover ICE agent. During the next 
11 days, the BEST task force raided three locations and 
arrested two subjects. What you see in front of you are actual 
pictures of what we took off the street--fully automatic 
assault weapons, 10 live hand grenades, 9 pipe bombs and parts 
to create over 50 hand grenades, along with illegal drugs. That 
is a lot of fire power that was taken off the streets of 
Laredo, Texas.
    Senator Cornyn, I would like to thank you for your support 
of the Laredo Police Department. They have been instrumental in 
the success of our BEST task force.
    We have seen violence with human smuggling and trafficking 
organizations in Arizona. They commit murder, extortion, 
kidnapping, rape and home invasion. ICE's response to the 
violence in Arizona was Operation Ice Storm. During this 
operation, ICE worked side by side with local law enforcement 
officers in Phoenix and Tucson to stem the violence associated 
with human smuggling and trafficking.
    Since 2003, ICE investigations into human smuggling and 
trafficking have resulted in more than 5,400 arrests, 2,800 
criminal indictments and 2,300 criminal convictions related to 
the human smuggling and trafficking of individuals. Many of 
these impact the southwest border.
    The threat of violence continues all along the border. A 
recent example is the incident that has been dubbed by the 
press as a military incursion in Hudspeth County, Texas. Based 
upon our investigation of the incident, ICE cannot conclude 
that this constituted an incursion into the U.S. by members of 
the Mexican military. However, we can conclude that these 
criminals were willing to cross the border to engage in illegal 
activity on American soil.
    In some cases, our increased enforcement efforts have 
driven the smugglers underground, literally. January 24th, we 
uncovered a tunnel equipped with lighting, ventilation and 
cement flooring after ICE agents in San Diego, working with CBP 
and DEA agents, provided information to Mexican law enforcement 
officials, who then discovered a tunnel entrance in Tijuana, 
Mexico.
    I have brought with me pictures of this tunnel, which 
extended nearly half a mile to a warehouse in the United 
States. Both ICE agents and Mexican law enforcement seized a 
combined total of 4,300 pounds of marijuana on both sides of 
the border.
    Everything I have described today leads me to the lifeblood 
of these criminal organizations--the money. ICE agents have 
over 30 years of expertise in investigation of financial 
crimes. In August 2005, ICE partnered with CBP and the State 
Department to train our Mexican counterparts on the methods 
used to smuggle currency from profits derived primarily from 
human smuggling and drug trafficking. Working together, our 
Mexican counterparts have seized over $23 million in cash and 
negotiable instruments for violations of Mexican law.
    We have been successful in the U.S. During fiscal year 
2005, ICE investigations have resulted in the seizure of nearly 
$1 billion in currency and assets tied to illegal activity. Our 
agents and officers know the risks, they know the threats, and 
we know how to combat them. Our work is contributing to a more 
secure border.
    The men and women of ICE are grateful to serve the American 
people, and on their behalf I thank you all.
    Chairman Kyl. Thank you very much. The tunnel that you are 
referring to is the upper left-hand chart and photograph, is 
that not correct?
    Ms. Forman. That is correct.
    [The prepared statement of Ms. Forman appears as a 
submission for the record.]
    Chairman Kyl. Well, let me begin. This is an astonishing 
picture of violence and crime at our border that has been 
escalating, and the first misunderstanding that I have 
perceived from some in the media is the concept that we have 
increased our Border Patrol and infrastructure on the border, 
but crime and violence have increased. Therefore, more law 
enforcement at the border is not the answer.
    Now, I can understand the fallacy behind that. But, Chief 
Aguilar and others on the panel, would you like to address that 
specifically?
    Mr. Aguilar. Yes, sir. One of the dynamics that we are 
facing is what I refer to as the entrenchment of these criminal 
organizations in areas where they have historically operated in 
the past, and in some areas with impunity where they have 
controlled areas. With the adding resourcing and with the added 
equipment that we have had, we have been able to expand our 
operations along our Nation's borders, in Arizona, for example, 
and in Texas, where we are now working much more efficiently 
and much more effectively in areas that in the past we just 
couldn't get to, or if we got to them, we were merely a 
nuisance to some of these criminal organizations.
    At the point that we are a nuisance is when the violence 
continues to escalate, until we become an overwhelming force to 
them and force them to no longer operate with the levels of 
impunity that they did in the past. What will happen is that 
they will move over to another area of operation because, as we 
stated, this is a vast border area.
    We are just now at the point where we are getting resourced 
to the degree that as our maturation process continues, we are 
able to anticipate where these criminal organizations are 
moving to. And, fortunately, I think we are now able to 
anticipate where to place some of these resources.
    Chairman Kyl. So would it be fair to say that in the past 
there has been a lot of criminal activity that you, simply 
because you didn't have the resources, were not able to 
interdict; that as you have gained the resources, you have 
moved in on their territory, caused them more problems, as a 
result of which they have reacted violently, and that with more 
resources you will be able to continue to shut this activity 
down? Is that a quick summary?
    Mr. Aguilar. That is absolutely a very accurate statement, 
yes, sir.
    Chairman Kyl. Thank you. Do either of the other two of you 
want to add to that? Mr. Charlton.
    Mr. Charlton. Senator, I would just add that during 
Operation Ice Storm which Ms. Forman referenced, the homicide 
rate in Phoenix decreased dramatically. Phoenix police officers 
indicate that that statistic was in large part due to the fact 
that Ice Storm was in place and that special agents were on the 
ground reducing the number of hostage-taking events that took 
place. So you are correct when you say that there is going to 
be an initial increase in violence, but once you put sufficient 
resources on the ground, violence will decrease.
    Chairman Kyl. Thank you.
    Ms. Forman.
    Ms. Forman. Senator, if I may add, I mean certainly you do 
more with more, and ICE's approach working with our partners at 
CBP and State and local law enforcement is to go after those 
organizations. Normally, there is a displacement effect once 
you succeed and they move somewhere else. But with more 
coverage, we are able to dismantle and disrupt many of these 
organizations.
    Chairman Kyl. Great. Thank you.
    Just my last question here: With regard to the incursions 
by Mexican governmental officials, Chief Aguilar, you indicated 
that there were some, not very many, but I forgot the exact 
number. And you have investigated those and had some 
cooperation from the Mexican government with respect to those.
    What is the usual situation that occurs where you actually 
have Mexican governmental officials involved in an incursion?
    Mr. Aguilar. Of the ones that we have detained and 
apprehended that we have been able to clearly identify as 
Mexican government officials, the vast majority of those have 
been accidental, even though I must qualify that even in some 
of those accidental incursions there have been serious things 
occur, as in the example that we used in El Paso. It was an 
accidental incursion into the United States by Mexican 
military. Unfortunately, there were founds fired at our 
officers because the Mexican military believed that they were 
still on the Mexican side and were firing at criminal 
organizations.
    Chairman Kyl. So there is a significant danger associated 
when military units face each other because they have both got 
weapons.
    Mr. Aguilar. Yes, sir, absolutely.
    Chairman Kyl. One final thing. Are you aware of the 
incursion by a Mexican governmental helicopter over in the area 
of Yuma, Arizona, or San Luis not too long ago?
    Mr. Aguilar. Yes, sir. That was about a week-and-a-half 
ago.
    Chairman Kyl. Can you tell us about that?
    Mr. Aguilar. It made an incursion of about half a mile. It 
lasted for about 15 to 20 minutes. A couple of things happened 
simultaneously. Our Border Patrol agents actually saw it, 
called it in. Our AMOC over in California, in Riverside, picked 
it up and were able to immediately contact the Mexican embassy 
and identify it as such. Radio contact was made and it made 
back into Mexico very quickly, again the Mexican government 
assuring us that it was an accidental incursion.
    Chairman Kyl. Thank you very much.
    Senator Feinstein.
    Senator Feinstein. Thank you very much.
    Chief, which are the most active cartels on the border? 
Obviously, Ariano Felix, but other than that?
    Mr. Aguilar. Right. The ones that are most problematic to 
us right now from a violence perspective are the Sinaloa and 
the Gulf cartels that are basically operating within the Novo 
Ladelo area of operation. I will leave it to my counterpart 
here from ICE to go into more detail on that, but those are the 
ones that are actually warring factions that are causing some 
of the violent escalations that are occurring.
    Senator Feinstein. Ms. Forman, do you want to comment on 
that?
    Ms. Forman. Yes. It's the Gulf cartel and the Alliance 
Federation cartel competing with each other, and both are 
extremely violent. I mean, compare it to the organized crime 
days in New York where they were competing for turf and for 
territory, and the brutality is unimaginable, what they are 
involved in.
    Senator Feinstein. If the penetration by these pseudo-
military people is cartel-inspired, which I think the facts 
would lead us to believe, what is being done between our two 
governments to develop a regional approach to this and to 
really move in make the necessary arrests in Mexico?
    Ms. Forman. If I could address that, we work closely with 
the Mexican government at all levels, at the Federal and State 
levels. We work with specialized groups side by side to address 
these issues and to work against these drug cartels, as well as 
the human smuggling cartels. We have ICE representatives in our 
attache offices working with the local government on a daily 
basis to address a number of these issues, and we have a number 
of task force operations where we are working with the Mexican 
government.
    Senator Feinstein. Yes, but this has been now increasing 
for 3 years. What cartel arrests have been made in Mexico to 
deal with this?
    Ms. Forman. I will have to get back with you on the 
specifics of those arrests.
    Senator Feinstein. Chief, do you know of any?
    Mr. Aguilar. There have been some. Unfortunately, I don't 
have the numbers or the individuals in front of me, but we will 
get those back to you. Now, the one thing I would like to 
address is real-time things that are occurring right now as we 
speak.
    The Federal Preventive Police in Mexico, the PGR, is 
working with us in very focused areas of the border, where they 
are operating in Mexico and we are operating, of course, in the 
U.S. to deter some of these situations that are occurring. San 
Diego--you just met with Chief Griffin about a week-and-a-half 
ago--is working very closely with the PGR and the PFP to 
include a lot of his area south in Mexico. In Laredo, Texas, we 
have got the same kind of relationship built up now as of about 
2 weeks ago, and the same thing in the Rio Grande Valley sector 
in South Texas, deep South Texas.
    Senator Feinstein. Is there currently any joint Mexican-
American border patrol effort with the sharing of intelligence 
on the tunnels, which I suspect are also moving weapons back 
and forth as well, particularly from the United States? Is 
there any indication that high-powered sniper rifles like the 
50-caliber are turning up on the border?
    Mr. Aguilar. We have had information that I am aware of. I 
do not believe we have detained any 50-caliber weapons. We have 
some intelligence to that degree. As far as joint operations, 
there is a lot of intelligence-sharing that is occurring 
especially at the ICE level and at the Border Patrol level in 
the field.
    Senator Feinstein. But is there any precise working unit, 
binational unit?
    Ms. Forman. I mean, we have task forces where there is----
    Senator Feinstein. That wasn't my question. Of Border 
Patrol?
    Mr. Aguilar. No. The closest thing that Mexico has to a 
border patrol is going to be the Policia Federal Preventiva, 
the PFP. They used to have a component of that that was 
actually Border Patrol-comparable. It went away about four or 5 
years ago while I was the chief in Tucson. They were very 
effective.
    We are actually working toward that with Mexico right now. 
It is still at the informal stages. It has not been formed to 
the degree that I think both countries want to see, but we are 
trying to move in that direction.
    Senator Feinstein. This is just my view, but I was so 
heartened by the meeting I had with the Mexican senators. It 
was the first time I have really seen a willingness to want to 
work together, and I think it would be just excellent if that 
effort could be put together and there could be a binational 
effort so that the Mexicans would really buy into this.
    Mr. Aguilar. Senator, if I may, I think it is important to 
make this statement. In my almost 28 years of service, this is 
the best we have ever seen Mexico step up to the plate and do 
something along their border. A lot more needs to be done; 
absolutely, a not more needs to be done.
    Right now, we are at the point that Mexico is being 
responsive and reactive to our call-outs. We need to get to the 
point where we are proactive and we are preemptive, and I think 
that is what you would like to see happening and I believe that 
that is what we are moving toward.
    Senator Feinstein. That is excellent. Thank you very much. 
Thank you, Mr. Chairman.
    Chairman Kyl. Thank you, Senator Feinstein.
    We are joined by Senator Sessions, and Senator Cornyn is 
next and if you could take the Chair briefly while I step out, 
I would appreciate it.
    Senator Cornyn [presiding]. I would be happy to.
    Ms. Forman, what is the role of Immigration and Customs 
Enforcement in the Hudspeth County investigation? Can you 
please provide us with an update?
    Ms. Forman. ICE is the lead Federal investigator for this 
incident and we are in the process of pursuing leads. It is an 
ongoing investigation and right now we are looking at it as 
primarily a narcotics investigation so we can identify those 
that are involved in this incident to see if, in fact, they 
were truly Mexican military officials.
    Chairman Cornyn. We have a number of sheriffs from Texas, 
and also we have a sheriff from Arizona that is going to 
testify, and obviously their jurisdictions are located along 
the border.
    Is there anything that you believe that we can do--and I am 
talking about Congress and I am talking about the Federal 
Government--to provide additional support for local law 
enforcement officials and to further integrate them into the 
overall law enforcement efforts along the border?
    Ms. Forman. Historically, ICE, with their legacy 
components, have worked very closely with State and local law 
enforcement, and it is very important that those partnerships 
continue and strengthen.
    I know many of these sheriff's offices have very few 
personnel. So working with them and supplementing them with the 
Federal personnel at the ICE level and at CBP certainly will 
make them stronger, in addition to additional technology so we 
all have the capability of speaking to each other with the same 
quality of technology.
    Chairman Cornyn. Well, I know there are--I think they are 
called 287(g) partnerships that exist between Federal law 
enforcement officials and local law enforcement officials. Do 
you see room to grow in terms of perhaps Congress providing 
additional funds and additional training and additional support 
for local law enforcement to help them further supplement the 
efforts of Federal law enforcement along the border?
    Ms. Forman. Absolutely. 287(g) is a powerful tool. 
Currently, ICE has memorandums of agreement with 5 police 
departments throughout the United States. We have two pending 
and eleven more requests. I think it is important that we make 
that an opportunity and make that available to State and 
locals, with the appropriate technology that goes along with it 
as well as the ICE resources to work together side by side with 
them.
    Chairman Cornyn. Well, I am glad to hear your answer. 
Obviously, this is a Federal responsibility, and local and 
State law enforcement are having to step up because 
unfortunately the Federal Government has not provided the human 
and technological resources necessary for the Federal 
authorities to do the job. So it just makes sense that we would 
support local and State law enforcement the desire to be 
involved in any way that we can through training and additional 
funding, and obviously in a coordinated effort.
    Chief Aguilar, I mentioned in my opening statement Joint 
Task Force North that is located at El Paso, as you know.
    Mr. Aguilar. Yes, sir.
    Chairman Cornyn. This is a Department of Defense task 
force, and I understand that it has supported the Department of 
Homeland Security on a number of joint border security 
operations. For example, Operation Winter Freeze, Operation San 
Juan, Operation Western Vigilance are all examples of the Joint 
Task Force North supporting the Border Patrol, which is the 
lead Federal agency.
    Historically, of course, we haven't had the Department of 
Defense taking the lead because of a variety of reasons, some 
legal and some policy judgments. And I certainly don't believe 
that the Department of Defense should take the lead. I believe 
they should be supportive of the law enforcement agencies like 
the Border Patrol and ICE.
    But I worry that we are not seeing the same sort of 
commitment by the Federal Government when it comes to 
supporting Federal law enforcement along the border that we 
provide to our war-fighters through funding and through access 
to technology through funding for the Department of Defense.
    The Department of Defense has a homeland defense 
responsibility. Obviously, the civilian agency, the Department 
of Homeland Security, has a law enforcement function. But they 
are all paid for by the Federal taxpayer and I would like to 
see development of a joint interagency task force in El Paso--
in other words, like we have in Florida--where we see all 
assets of the Federal Government, all agencies of the Federal 
Government who are concerned with law enforcement and border 
security--that we make sure they are operating in a coordinated 
effort and that all assets that are available even to the war-
fighter in the Middle East or Afghanistan--more UAVs, more 
ground sensors and the like--that those are supplied to our 
border protection efforts.
    Could you comment on where we are now and where you would 
like to see us go in that connection?
    Mr. Aguilar. Absolutely. Senator, I can only speak, because 
that is what we are getting from DOD, in very glaringly 
positive terms about JTF North and DOD. Now, could we use more 
help? Absolutely, yes.
    JTF North, besides the operations that you just mentioned, 
has been very, very supportive of us. In fiscal year `05, they 
supported us with 49 specific missions, everything from sensor 
technology to flying some UAVs for us, building infrastructure, 
building roadways, fences and things of this nature that are a 
tremendous force multiplier.
    For fiscal year `06, we have approximately 240 mission 
requests outstanding for fiscal year `06, of which several are 
ongoing as we speak. I don't know how many they are going to be 
able to actually source for us because of the two-theater war 
that we are fighting as a Nation. In 2007, we again have over 
250 mission requests for them. They work very hard to get us 
what we need, and when we do get their support it serves as a 
tremendous force multiplier for us.
    As we speak, the border infrastructure system in San Diego, 
for example--they do a tremendous amount of work for us in 
building the triple fencing, setting up the camera sites and 
things of that nature. The relationship is very, very positive.
    Two weeks ago, one of my senior associate chiefs sat down 
with the National Guard bureau commanders here in Washington, 
D.C., to brief them up on our National strategy, our rationale 
for the way we do business and our path forward, if you will. 
The reason for that was to do just as you explained, to create 
some synergy between what they have available to them--this, of 
course, in an informal manner--and then apply that in support 
of our National strategy. We are working toward that end. I 
myself will be meeting with the National Guard commander here 
very soon to cement that effort.
    But anything that the DOD can do for us is a tremendous 
asset, a tremendous asset, especially in the way of building 
infrastructure, giving us the ability to even get to some of 
our border areas that in the past we just didn't have any means 
of getting to, building roadways and things of this nature.
    Chairman Cornyn. Well, I appreciate your response. 
Yesterday, I met with Secretary Paul McHale, who is the--I 
believe his title is Under Secretary for Homeland Defense at 
the Department of Defense, and he was very forthcoming in terms 
of the support that he said the Department of Defense was 
willing to offer to the Department of Homeland Security, 
although they made clear their primary mission was war-
fighting.
    But there are many more assets available to the Federal 
Government and I think should be made available along the 
border other than those that are currently dedicated to the 
Department of Homeland Security and the Border Patrol. And I am 
glad to say that Senator Sessions and I serve on the Armed 
Services Committee, and speaking for myself I intend to make 
sure that we push very hard to make sure that there is the kind 
of cooperation which you have already indicated has been 
indicated but which is not yet there. For example, I understand 
there is only a single UAV available to the Department of 
Homeland Security now. We need to fix that problem.
    Thank you, Mr. Chairman.
    Chairman Kyl. Thank you, Senator Cornyn.
    Senator Sessions.

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Thank you, Mr. Chairman, for this 
hearing. I have been watching with some concern the reports in 
the papers about violence at the border and I couldn't be more 
pleased that the Chairmen have called this hearing to air that 
problem.
    I feel very much that we have a responsibility to our 
agents that are out there. We have a couple of 
responsibilities, I believe. First and foremost is to make sure 
that they are supported and that they are not subjected to 
violence, and that we can protect them from that and we can do 
better job and we have to do a better job. We can't ask people 
to go out and put their lives at risk and not be able to 
protect them.
    Second, I believe we owe them a commitment that we are 
going to enforce the law, that they are not out there by 
themselves in a hopeless effort, that nobody cares, that we 
really don't want the law enforced and that we are just going 
through some sorts of motions, oftentimes placing them at 
personal risk that suggests that we are not serious about it. 
So I think there is a growing consensus in our Congress that we 
need to have a lawful immigration system.
    Mr. Charlton, as U.S. Attorney for 12 years in Arizona, you 
have come to have an affinity for the law, a pride in the law, 
and a belief that in your district you enforce the law. Is it 
troubling to you that on a wholesale scale, you are having, 
what, 575,000 people arrested in your State, and obviously many 
more not being arrested, and that it appears from the surface 
that we really don't have a very lawful area there?
    Would you share with us your thoughts as the chief law 
enforcement officer, I guess, in the State of Arizona, how you 
feel about a circumstance like that?
    Mr. Charlton. Thank you, Senator. I know as a former U.S. 
Attorney yourself, you understand the responsibilities that are 
involved in these issues. As you indicated, there are 
approximately 577,000 individuals who were apprehended by the 
Border Patrol along the Arizona border. And as I indicated 
earlier, that represents approximately 50 percent of all the 
illegal aliens who were detained in the whole of the United 
States detained in Arizona alone. That is an extraordinary 
responsibility for the men and women in law enforcement there.
    It is an extraordinary responsibility for the prosecutors 
in our office who work very hard to move those cases through 
the system. And they do an extraordinary job, Senator. I think 
you would be very proud if you saw the caseloads that these 
people were carrying. It is of grave concern to us and we are 
working very hard to address the issue.
    Senator Sessions. Well, I would like to proceed in a moment 
and follow through how cases are typically handled and what 
those challenges are. But I agree; 577,000 apprehensions 
indicates that somebody is working hard. And they are not out 
there doing that at nine o'clock in the morning. A lot of times 
it is at 2 a.m. and that kind of thing that people are doing 
the work to protect the laws of the United States and our 
borders. So I salute them.
    I just believe we need to be sure that they know and we are 
committed to backing them up, and that this has meaning; it is 
not a meaningless exercise. I don't know how you maintain the 
morale that you do. You apparently have pretty good morale, but 
it seems too much like the old days of the revolving doors. 
People would arrest people and they were released the next day, 
and years would go by before they had a trial and then they got 
probation and you wondered why you went through the process. We 
have changed that as a country and crime has dropped by half, 
nearly. We have made tremendous progress and I think we can do 
that here.
    With regard to the local police, you have mentioned, Ms. 
Forman, the 287(g) agreements. I believe that is the agreement 
you signed with the State of Alabama that you have been 
referring to.
    Ms. Forman. Yes.
    Senator Sessions. How many more of those are in existence 
in the country today?
    Ms. Forman. We have 11 requests pending and we have 2 
requiring signature that will be forthcoming. So that will be a 
total of approximately 18 in place.
    Senator Sessions. So that will total 18 in place?
    Ms. Forman. Yes.
    Senator Sessions. Well, wouldn't you agree that is a pretty 
small effort?
    Ms. Forman. I can tell you that we have an aggressive 
recruitment effort out there. We have 26 special agent-in-
charge offices. We have instructed our special agent-in-charge 
offices to go meet with their State and local representatives, 
let them know what 287(g) is and see what their interests are.
    Senator Sessions. And basically this allows local law 
enforcement officers to be trained and to be able to 
participate voluntarily. There is not any mandate on them, but 
if they choose to be able to partner with the Border Patrol or 
ICE to process people they may apprehend in the normal course 
of their business. Is that correct?
    Ms. Forman. That is correct.
    Senator Sessions. Well, I remember about two or 3 years ago 
when we started pushing for this agreement for Alabama, it took 
quite a long time. I have got to tell you ICE was dragging 
their feet. Florida and I think Alabama at the time were the 
only two States that signed such an agreement, and now you have 
got 18, which is pretty small.
    I want to know right now, and you tell us directly, do you 
believe this is a good process and are you actively promoting 
it and seeking more law enforcement agencies to participate in 
this program?
    Ms. Forman. Yes, I do believe it is a good program. I 
believe it is also important to make sure that the governing 
boards of the State and local law enforcement officers are also 
engaged in the program and that they support the program, 
because oftentimes we have had a number of other requests where 
the State and locals may make the request, but the governing 
body may be opposed to it for one reason or another.
    Senator Sessions. Who is that? Do you mean the mayor?
    Ms. Forman. Mayor, Governor. Some have governing councils.
    Senator Sessions. Well, I think it would be good to know 
what mayors and what Governors wouldn't support that. But there 
are, I think, 750,000 State and local law enforcement officers. 
How many ICE investigators do you have?
    Ms. Forman. There are approximately 5,500 ICE special agent 
investigators.
    Senator Sessions. And what about Border Patrol enforcement 
officers?
    Mr. Aguilar. 11,300, currently.
    Senator Sessions. So you have got about 16,000 Federal 
officers and we have about 750,000 State and local, and I 
believe it is appropriate for them to participate in this 
process.
    Would you agree, Mr. Aguilar?
    Mr. Aguilar. Senator, 287(g) is absolutely a very, very 
good tool.
    Senator Sessions. Now, who promotes that? Is it ICE or is 
it Border Patrol?
    Mr. Aguilar. 287(g) is managed by ICE, yes, sir. We are the 
beneficiaries of 287(g) when it does occur in a border State 
area. The one thing I would like to add here is that there are 
certain things that are already tried and true that the State, 
local and tribal entities which are absolutely essential from a 
partnership perspective to bring control of the border can do; 
Operation Stonegarden, for example, where the State homeland 
security directors are able now to utilize some of the grant 
money to border enforcement efforts to support the State, local 
and tribal entities to work in coordination with the Border 
Patrol in a very focused manner along our Nation's border with 
Mexico.
    Senator Sessions. Well, what happens today in Alabama if a 
police officer apprehends someone who has had a wreck and they 
approach them and discover they are in the country illegally? 
Do you know what as a practical matter happens?
    Mr. Aguilar. In Alabama, we do not have a big presence of 
Border Patrol, sir, but we would, of course, welcome the call 
if we happened to receive it. But I believe ICE would be the 
one that would be responsive to that, to those calls.
    Senator Sessions. What would ICE do, Ms. Forman?
    Ms. Forman. If it is a 287(g) cross-designated, or even if 
it is not, the State and local law enforcement----
    Senator Sessions. Let's say it is not.
    Ms. Forman. OK.
    Senator Sessions. Just a police officer in a town in 
Alabama.
    Ms. Forman. Seven by twenty-four, ICE oversees the Law 
Enforcement Support Center that is available 24 hours a day to 
State and local law enforcement officers to call, and it is 
manned. What they get is they will run the individual's name, 
the LESC, and they will let the individual know--we have eight 
immigration data bases located at the LESC. They will be able 
to tell whether this individual is legal, whether this 
individual may be a gang member, and whatever other history 
that is contained in that data base.
    Senator Sessions. Well, if it is somebody that is there 
illegally, what the officers tell me--and I ask them as I 
travel the State--is that basically the rule in Alabama was it 
was 15 or more, we might come and pick them up; otherwise, 
basically don't bother to call.
    Isn't that the real fact, that you do not even attempt to 
respond to the calls of local law enforcement who, in the 
course of their normal duties, have apprehended someone who 
might be here illegally for less than a serious felony offense?
    Ms. Forman. Senator, I will not agree with that across the 
board. I will tell you that, with 5,500 special agents, we have 
to prioritize, and our prioritization entails national security 
and public safety, those individuals who are involved in 
violent crimes, and then those individuals who are in this 
country illegally.
    Senator Sessions. I don't want to argue with you, but I am 
just telling you that is the way it is. Now, we can talk about 
this any way we want to, but the fact is that in most States of 
this country, if people are apprehended by a local law 
enforcement officer for any number of matters and they are 
determined to be illegally here, you don't respond. I had one 
officer tell me, well, I would take them to Birmingham if they 
would at least pay me my mileage.
    Will you pay them the mileage to bring them to the ICE 
headquarters in the State? Is there any plan to do that for the 
State?
    Ms. Forman. I will tell you funding is an issue.
    Senator Sessions. What is that?
    Ms. Forman. Funding is an issue.
    Senator Sessions. So you don't have the money to do that?
    Ms. Forman. Funding is a consideration in terms of what we 
are able to do.
    Senator Sessions. And we are not doing that. That is the 
true fact.
    Mr. Chairman, my time has run. I am sorry.
    Chairman Kyl. Yes. We are going to do a quick second round. 
The vote is on, and what I would suggest right after I ask this 
first question--Senator Sessions, you might want to hear it, 
and then why don't you go ahead and vote? And we are going to 
play tag team, as I indicated earlier.
    This problem that Senator Sessions is talking about is not 
just a problem in a State like Alabama, which you might expect 
wouldn't have a lot of ICE agents. It is a problem in Arizona. 
It happens all the time that police officers are called to a 
drop house or they stop a van and it turns out there are a 
bunch of illegal immigrants there. And, yes, they are able to 
do the quick criminal check, but frequently when they call 
somebody to take custody of the illegal immigrants, there is 
nobody available. And I think it is a matter of resources; it 
is also a matter of will.
    Now, let me ask you two questions. First of all, in a State 
that is highly impacted like Arizona, for example, wouldn't it 
be relatively easy to have a small fleet of old school buses 
available and some officers who could be deputized under the 
statute to take custody of illegal immigrants and return them, 
if they are Mexicans, to the border, with a response time of 
maybe 20 or 30 minutes maximum so that our police officers 
don't have to spend all of their time sitting with the illegal 
immigrants?
    Wouldn't it be possible in a city like Tucson or Phoenix to 
have this kind of capability available at a relatively low 
cost?
    Ms. Forman. I think the issues again go, Senator, into 
resources in terms of prioritizing our resource usage. Right 
now, our agents are focused on the root of these problems, and 
that is the criminal organizations that bring this----
    Chairman Kyl. I understand that, OK. What I would like from 
you in writing as soon as you can get it to me is what it would 
take in terms of resources to respond to the challenge that 
Senator Sessions and I have laid out. I have been talking about 
this for 2 years and it seems to me it wouldn't take very much 
in the way of resources to have some old school buses and some 
retired officers who could easily be deputized under current 
statutes to take custody of people.
    It diverts resources that are devoted to high-priority in 
Phoenix, Arizona. Phoenix Police Department officials come to 
me and complain that they show up at a drop house; there are 
200 illegal immigrants there or 100 illegal immigrants. And by 
the way, the person that tipped them off is usually the 
smuggler because he has got another load coming in that night 
and needs to make room for them, and they have already been 
robbed and sometimes raped. It is a bad, bad deal. And yet they 
have to turn them loose because they call ICE and there is just 
nobody that is immediately available.
    It seems to me to be fairly easy in a place like Arizona. 
Now, I can understand that in a place like Alabama you don't 
have as much call for them and cost/benefit-wise it is more 
difficult. So provide for us what it would take in resources, 
because if you ask, Congress is likely to respond by providing 
the resources because this is a serious problem. And it is even 
more serious with the detention--or the failure to detain the 
other than Mexicans who, of course, are simply released into 
our society and very rarely show up to be removed when their 
home country finally gets around to saying that they will take 
them back. That is another whole problem.
    But what I have not been able to get from the Department of 
Homeland Security is a commitment to quickly deal with this 
problem. We are told that in another year we should be able to 
have sufficient detention space available with regard to the 
other than Mexicans. That is not acceptable as far as I am 
concerned.
    If you want to respond orally, fine. Otherwise, I would 
appreciate it in writing.
    Ms. Forman. OK.
    Chairman Kyl. OK. Now, Chief Aguilar, as you know, the 
Tohono O'odham Indian Tribe is located on the border with 
Mexico, in southern Arizona, and they have been part of our law 
enforcement community working with the Border Patrol. I know 
you are familiar with them and try to work as closely as 
possible with the Tohono O'odham so they can do their part in 
securing their part of the border.
    How is the Border Patrol responding to the kind of violence 
that is occurring also on the Tohono O'odham Indian Nation 
land? What can you tell us about what we can expect there to 
improve the situation there?
    Mr. Aguilar. Yes, sir. First of all, the number of Border 
Patrol agents that are not patrolling the Tohono O'odham Nation 
has grown tremendously, about 30 percent in the last couple of 
years. So that augmentation of enforcement resources has helped 
tremendously. There has been a drop of about 19 percent in the 
number of arrests that are occurring on the Tohono O'odham 
Nation.
    You will remember, Senator, that the arrests were 
tremendous out there. So a 19-percent drop is, in fact, 
dramatic. In addition to that, we get what we call third-party 
indicators from the Tohono O'odham Nation itself--pursuits that 
are occurring on the Nation, call-outs to the police 
departments due to illegal alien activity and things of this 
nature.
    We have seen a dramatic drop in those instances. For 
example, when I was there as the chief patrol agent, we were 
still in the process of resourcing. It would not be unusual for 
the Tohono O'odham Police Department to be involved in high-
speed pursuits on an average of five to eight times a day. We 
are now seeing it averaging about once to twice a week, and 
sometimes it is even less than that. The medical facility on 
the Tohono O'odham has dropped dramatically in the number of 
medical responses that they have to do.
    One of the things that we are looking forward to this 
coming year is because of Congress allocating $35 million 
specifically to Tucson sector, the Tohono O'odham Nation is 
going to be the beneficiary of what we refer to as a drive-
through barrier, a drive-through barrier almost along the 
entire length of the Tohono O'odham Nation's border with 
Mexico, which will be a tremendous enforcement resource for us 
because the biggest problem that we have on that Nation is 
drive-throughs, people driving across that border and nothing 
to stop them. So it is going to mirror kind of like what was 
done on the Oregon Pipe National Forest. That dropped almost 
overnight when that was constructed.
    Chairman Kyl. When you say drive-through barrier, you had 
better describe what you are talking about because it is not 
really a drive-through barrier.
    Mr. Aguilar. No. It is a barrier that is constructed in 
such a way that it does not allow motorized vehicles to 
basically drive with impunity from Mexico into the United 
States. Right now, as you know, and I think both of you have 
seen, we literally have a line in the sand, nothing that keeps 
these smugglers out of the Tohono O'odham Nation.
    So once we put up that drive-through barrier, it will not 
allow that level of illegal traffic to go and come into the 
Tohono O'odham Nation. We expect tremendous results out of 
that.
    Chairman Kyl. These are basically bollards embedded in 
concrete.
    Mr. Aguilar. Yes, sir, bollards, rail upon rail and things 
of this nature, yes, sir.
    Chairman Kyl. OK, thank you.
    Senator Cornyn.
    Chairman Cornyn. Chief Aguilar----
    Chairman Kyl. Would you excuse me? I had one question for 
Paul Charlton that I don't want to forget.
    We talk about resources, more Border Patrol agents, more 
ICE agents, and so on. What kinds of problems are created by 
more law enforcement personnel with regard to your job and the 
rest of the tale of the criminal justice system?
    Excuse me. I am sorry.
    Chairman Cornyn. No problem.
    Mr. Charlton. We have seen an extraordinary increase in the 
demands upon our office and all of the United States Attorneys' 
offices along the Southwest border, Senator, and we have asked 
the Department of Justice to take a look at our resources and 
the allocations so that they can make a determination as to 
what kind of adjustment needs to be made as a result of the 
dramatic increase in law enforcement so that we can service the 
agencies that are working so hard to impact this problem.
    Chairman Kyl. We need to ensure that the court system, the 
public defenders, the jail facilities, the U.S. Attorney 
complement and all of the rest of the parts of the criminal 
justice system can keep up with the increase in the law 
enforcement agents that we have.
    Mr. Charlton. Thank you, Senator.
    Chairman Kyl. Senator Cornyn, what I am going to do is go 
vote right now. I will make sure they hold it open for you and 
then when I come back, you can take off.
    Senator Cornyn [presiding]. It sounds good.
    Chief Aguilar, the House of Representatives, as I 
understand it, has proposed a 700-mile fence between Mexico and 
the United States. Do you support that 700-mile fence?
    Mr. Aguilar. What we support, Senator, is going to be a 
fence that we can manage. We should not build a fence that is 
built just for the purposes of building a fence. What we prefer 
and need as a country is a fence that is inclusive of 
technology and supporting infrastructure that can allow the 
enforcement assets to support that fence, because if we build a 
fence and we cannot access it, we cannot get to it, we cannot 
patrol it appropriately, it will actually prove to be 
beneficial to the smugglers if we are not careful.
    So when we talk about a fence, we need to talk about a 
comprehensive model, if you will, that sometimes does require a 
fence. At other times, it may require a drive-through barrier. 
At other times, it may require just a combination of technology 
that will give us what the Secretary and we are now calling a 
21st century fence that will give those eyes and ears on the 
border.
    So I guess a short answer to the 700-mile fence is probably 
not. We need to have those eyes and ears on those 700 miles of 
border that will give us the capability to create the 
deterrence that we are looking for.
    Chairman Cornyn. What I hear you saying is that there is a 
place for strategic physical barriers, including fencing in 
some appropriate locations to help the Border Patrol manage the 
flow of people across the border in your law enforcement 
efforts.
    Mr. Aguilar. Absolutely, yes, sir, and if I may use this as 
an example, I was talking to Sheriff Larry Dever right before I 
stepped up here. We started the fencing project in Cochise 
County about 3 years before I got there in 1999, but it took a 
maturation process and a comprehensive approach of the fences, 
the technology, the cameras, the roadway-building, the bollard-
building, and even building culverts by the military that got 
us to where we are today.
    Today, as we speak, our Douglas border patrol station has 
dropped by 43 percent as compared to the year before in the 
number of apprehensions. Our Wilcox station, also, in Cochise 
County has dropped by over 48 percent. Our Naco station has 
dropped by over 44 percent--the lowest numbers in 10 years. So 
it is that comprehensive approach.
    And by the way, I don't want to pass up an opportunity. One 
of the very critical pieces of this is that U.S. Attorney 
Charlton's office, speaking to the cost of his office, 
prosecuted last year 2,300 felony cases for the Border Patrol, 
only the Border Patrol, in the District of Arizona, and over 
1,200 misdemeanor cases. So it is that comprehensive approach 
that really gets us to where we need to go.
    Chairman Cornyn. Well, I welcome your response to the 
question about the 700 miles in fencing. I hate to see us use a 
19th century solution to a 21st century problem.
    Mr. Aguilar. Exactly, yes, sir.
    Chairman Cornyn. And I agree with your description that a 
21st century virtual fence, a combination of technology and 
strategically placed physical barriers, makes a lot more sense. 
The problem is we built a wall, or even assuming we could 
accomplish that, we would still have problems with the kinds of 
tunnels that you see here, or as someone suggested to me 
yesterday, if we built a 50-foot fence or wall around our 
southern border, then there would be an explosion in the demand 
for 51-foot ladders.
    Mr. Aguilar. Yes, sir.
    Chairman Cornyn. Ms. Forman, over the detentions of non-
Mexican nationals come from El Salvador. In 2005, just in the 
Rio Grande Valley alone, there were approximately 20,000 
Salvadorans detained. Yet, the Department of Homeland Security 
is not able to apply expedited removal proceedings to these 
illegal aliens because of a 17-year-old injunction that 
prohibits them from applying that streamlined process that I 
can tell you Congress is eager for the Department of Homeland 
Security to use because of that injunction.
    Without going into the specifics of the litigation, can you 
tell me whether the Department of Homeland Security is taking 
steps to revisit that injunction?
    Ms. Forman. I am aware that the Homeland Security Secretary 
is taking steps to address the injunction. I am not prepared to 
give you the specifics of those at the Department level.
    Chairman Cornyn. Well, my understanding in talking to the 
Attorney General of the United States is that there is 
litigation being planned. I am surprised that an injunction is 
still in place after 20 years. It seems to me that injunctions 
that affect our border security and frustrate the Government's 
ability to stop illegal immigration should be more narrowly 
tailored. So I certainly would support an effort to go back to 
the court and to seek either an elimination or a vacation of 
that injunction, or at the very minimum something more narrowly 
tailored.
    Would you agree with that general proposition?
    Ms. Forman. Yes, I would.
    Chairman Cornyn. What we have heard from each of you, I 
think, with regard to what we are doing on, for example, drug 
smuggling--we have seen this tunnel in California that was used 
clearly for illegal drug traffic.
    My understanding is that at the Department of Defense, the 
money that Congress has appropriated, Chief--and maybe you 
would be the best person to respond to this--is primarily 
related to illegal drug traffic. And you may not know the 
budget of the Department of Defense. I wouldn't expect you to.
    Mr. Aguilar. I do not, sir.
    Chairman Cornyn. But I am told by Secretary McHale that 
Congress needs to provide additional funding to deal with human 
smuggling and not just drug smuggling, the premise of that 
being that what we are seeing is organized crime smuggling or 
bringing across anything and everything that they can make a 
buck in.
    And they don't really care--and I think U.S. Attorney 
Charlton mentioned this earlier--they don't care about the 
people, they don't care about who gets hurt. They just care 
about making the money, and they will smuggle guns, they will 
smuggle people, they will traffic in human beings, they will 
bring across weapons of mass destruction, they will smuggle 
terrorists if they can make money doing it.
    Would you agree with that, Chief Aguilar?
    Mr. Aguilar. Absolutely, sir, and I would absolutely agree 
with Under Secretary McHale's statement. One of the critical 
things I think here is that we need to take an approach of not 
anti-alien smuggling, not anti-narcotics smuggling, but all 
threats coming across that border. That is what we need to get 
to and that is that virtual fence that we are talking about.
    Chairman Cornyn. Attorney Charlton, would you agree with 
that approach that we need to not just necessarily fund and 
focus on anti-drug traffic, but all of the above?
    Mr. Charlton. That is correct, Senator. The issues have now 
merged and become one. The threat of one of violence by all 
organized crime as they attempt to infiltrate our border, and 
that is where we need to focus our resources.
    Chairman Cornyn. Well, I think as Senator Kyl votes and 
comes back and as I go vote, I do believe that--well, let me 
double-check.
    I was just checking to make sure that we had satisfied the 
members' desire to have an opportunity to question this panel. 
So let me thank you for your being here and thank you for your 
service. You are performing very important jobs and serving our 
Nation.
    And I hope you understand that when we criticize--that is, 
Members of Congress criticize the lack of a Federal response, a 
proportional response to this threat, that we are not directing 
that criticism at you. In fact, you are the solution to the 
problem. We just need to give you more manpower, more men and 
women, to help, and we need to give you the resources and tools 
that you need in order to be successful in the very important 
job that you have undertaken on our behalf. So thank you very 
much for being here today. Thank you for your testimony and 
your continued service.
    We are going to now move to the second panel and we will 
take a short break while they assemble.
    [The Subcommittees stood in recess from 10:33 a.m. to 10:39 
a.m.]
    Chairman Kyl. The Subcommittee hearing will resume. There 
were questions that some of the members of the panel had for 
the first panel that will be submitted for the record so that 
we can move on to our second panel, and I appreciate your 
indulgence in the disruption that we had here.
    On the second panel we will hear, as I said before, from 
the Sheriff of Cochise County, Arizona, Larry Dever; the 
Sheriff of Val Verde County, Texas, Wayne Jernigan; Lavoyger 
Durham, the manager of the El Tule Ranch in Falfurrias, Texas; 
and T.J. Bonner, who is President of the National Border Patrol 
Council. We are very appreciative that all of you are here.
    Since I don't have a particular order, maybe I can just 
start at this end of the table and we will move this way, if 
that would be all right with you, Mr. Bonner. You will be the 
clean-up hitter.
    Let me start with my friend, Larry Dever. Welcome.

 STATEMENT OF LARRY A. DEVER, SHERIFF, COCHISE COUNTY, ARIZONA

    Sheriff Dever. Mr. Chairman, thank you for the opportunity 
to testify here today. I was here in 1997 testifying before the 
Foreign Relations Committee on border violence, as well, and it 
seems like we are still pretty much mired in the same muck that 
we were at that time, or if anything it is a little bit worse.
    You have heard some interesting testimony about some 
suggested needs and methods of trying to mitigate the violence 
that is going on down there. I would just like to take a moment 
and read to you from Arizona Sheriffs magazine a quote from the 
Border Patrol chief of the Tucson sector, at that time Chief 
Jerald Jondall.
    He said, ``Within the last year, we have been mandated by 
Congress to gain control of that border, and we are going to do 
that along the southern border, whether it is narcotics, 
illegal aliens, terrorists, criminals, or whatever.'' That, 
sir, is dated autumn of 1987. I don't need to tell you at what 
juncture we are at today. 1987 was the year that we first 
organized the joint narcotics task force in Cochise County in 
response to the cocaine trade that had entered that part of the 
country. Cocaine Alley was the common name for that particular 
corridor.
    At that time, there were no DEA agents in Cochise County. 
There was no FBI. The Customs Office of Enforcement had maybe 4 
agents, and Border Patrol possibly a total of 100. Today, the 
FBI is there, DEA is there. Customs has increased many-fold, 
and there are well over 1,200 Border Patrol agents stationed in 
Cochise County. Yet, the violence continues to increase, as you 
have heard here today, and whether that is because of the law 
enforcement presence or in spite of it, nobody can dispute that 
it has markedly increased.
    Twenty to twenty-5 years ago, working along the border in 
drug interdiction, we actually jumped smugglers right on the 
fence and they would just simply give up. Some of them would 
run back into Mexico, but they always dropped their contraband 
and there was no fight to be had. Today, it is just the 
opposite. We anticipate that we will be in a fight, a very 
violent confrontation in every interdiction effort, with 
running gun battles down congested public roadways, populated 
residential areas, high-speed chases.
    Paul Charlton talked earlier about the prosecution of two 
smugglers who caused a very serious accident, a fatal accident 
in Sierra Vista just recently, driving recklessly in an 
overloaded truck. Most of the vehicles that are used to 
transport illegals are, in fact, stolen from the Tucson and 
Phoenix areas. They are overloaded and their drivers are 
inexperienced.
    The people-smuggling culture is marked by little, if any, 
value for life or respect for persons or property. One study 
estimates that 80 percent of all illegal aliens that enter this 
country become victims of crime before they ever get here, and 
that those atrocities continue after they cross the border.
    We have come across an interesting phenomenon--or not a 
phenomenon, a situation where smugglers mark their trails or 
locations where rape has occurred of one of the illegal aliens 
being smuggled as a sign to others that they must cooperate 
with the smuggler. They hang women's undergarments in the tree 
to mark that location as a signal of their prowess and their 
dominance in the smuggling environment.
    I mentioned running gun battles, fleeing felons, placing 
law enforcement officers at great risk, as well as the general 
public. I could tell you of many car-jackings. I was counseled 
by staff of a Congressman yesterday that I shouldn't talk too 
much about specific examples of car-jackings because it is so 
commonplace in the Washington area that it wouldn't carry much 
weight.
    Well, sir, you will forgive me, but that is just not 
acceptable in my environment and the people that I work for. If 
it becomes commonplace there, it certainly will be a sad day 
and a sad situation.
    We desperately need your attention and your assistance. You 
have heard today about several Federal initiatives and joint 
initiatives. I would just like to emphasize that every Federal 
initiative, every strategy that is implemented at the Federal 
level has a local consequence, and those consequences aren't 
always considered in the planning process. I would encourage 
whatever influence or requirement that can be included in 
funding that would require, in fact, that local participation 
be considered so that those consequences will be totally 
understood before they are implemented.
    I thank you again for the opportunity and would invite any 
questions, sir.
    [The prepared statement of Sheriff Dever appears as a 
submission for the record.]
    Chairman Kyl. Thank you very much, Sheriff Dever.
    Sheriff Jernigan.

 STATEMENT OF A. D'WAYNE JERNIGAN, SHERIFF, VAL VERDE COUNTY, 
                             TEXAS

    Sheriff Jernigan. Thank you, Mr. Chairman. Mr. Chairman, my 
written testimony and its attachments provide you with somewhat 
of a thumbnail view of the organizations and their weaponry 
that are currently engaged in the violent trade of illegal 
drugs and human smuggling on the Texas-Mexico border. Just in 
the last few days, we apprehended illegal aliens during a 
burglary near the port of entry. One of the aliens fled on foot 
and was apprehended by the deputies and agents of the U.S. 
Border Patrol. The alien that was apprehended inside the 
residence was later identified as a career criminal with a 24-
page rap sheet. His criminal career included offenses in 
Florida and Texas, and his clothing was still wet from his 
illegal entry.
    For over a year, groups of male subjects illegally crossed 
the river into the United States and burglarized remote ranch 
homes. These subjects took items from the homes that they 
burglarized and would actually abandon the items they took from 
one home at the next burglary as they moved north into the U.S. 
The only items that they routinely kept were the firearms. Yes, 
the firearms.
    During one of the burglaries, the subjects brought with 
them, of all things, electric hair clippers, with which they 
actually took the time at the scene of the burglary to cut 
their hair in a rather distinctive manner which we recognize as 
one of the distinctive details that are used by some of the 
gang members in the areas south of us.
    When these subjects would encounter law enforcement, they 
would conduct sophisticated escape and evasion tactics to break 
contact with law enforcement. In one incident, the subjects 
traveled 20 miles a day on foot across harsh landscape. The 
last subject that was apprehended in that group had traveled 
over 80 miles on foot before his arrest and apprehension. We 
noted that these particular subjects were always physically 
fit, and it is my humble opinion that these subjects had 
received prior training for escape and evasion.
    The Texas Border Sheriff's Coalition is very concerned, Mr. 
Chairman, about the unique problems along our border that I 
have addressed in my written testimony. The United States 
Border Patrol and ICE are doing the best they can with the 
resources that they have been provided. Immediate help is 
needed for them for the protection of our country.
    We have implemented Operation Linebacker, a second line of 
defense in the protection of our country. This program allows 
us to work in partnership with our Federal partners in border 
security. The problems along the border are Federal problems. 
Our Governor, the Honorable Rick Perry, did not wait for an 
officer to be killed along the border to take action. He, just 
as we, is very much concerned. He has allocated some $6 million 
for us to initiate Operation Linebacker. Just last month, he 
announced an additional $3.8 million that he will grant the 
coalition.
    This much-needed assistance provided by Governor Perry has 
already produced measurable results, but this assistance is 
only a stop-gap measure. More help is necessary if we are to 
see an acceptable level of security exist on the border. The 
problems along the border will continue unless our Federal 
Government does something soon. Must we wait until additional 
officers are killed or assaulted or injured, or until another 
terrorist act occurs?
    I have addressed many of the enforcement issues facing the 
border today in my written testimony, but another crisis faces 
us, Mr. Chairman. The judicial system on the border is strained 
to failure. In Val Verde County alone, the annual budget for 
jury trials will be exhausted this month, in March, only 
halfway through the fiscal year. An examination of the caseload 
of the United States District Court for the Western District of 
Texas demonstrates this crisis irrefutably.
    I have attached a report that demonstrates a 10-year record 
of civil filings within the Western District of Texas. It is 
marked as Attachment 6. The number of filings of civil cases 
across the district has remained fairly level, with only minor 
increases consistent with our population growth.
    However, if you examine the criminal filings for the same 
period, an alarming trend is quite evident, Mr. Chairman. The 
two district courts on the border have seen a dramatic caseload 
increase, with little or no population increase. As you will 
note in, I believe, Attachment 8, it shows that the caseload of 
the two United States magistrates just in Del Rio--you will see 
that each of their caseloads equals the caseload of the other 
magistrates in the Western District combined. The other 
district judges in the Western District have seen small 
increases in their caseloads.
    What is not reflected in these stats is the number of 
criminal subjects who are apprehended with commercial 
quantities of drugs, but who fall under the quantity threshold 
arbitrarily established by the United States Attorney's office. 
These subjects who have been apprehended by authorities are 
released without prosecution. Remember that only a small 
percentage of all drug and alien traffickers are apprehended, 
and then a portion of those apprehended are released without 
prosecution due to budgetary constraints. The criminals grow 
more educated by a system that is broken and allows them to 
continue engaging in a criminal enterprise that is destroying 
rural Texas communities.
    Mr. Chairman and Committee members, we must restore justice 
to the border. I am convinced that by funding additional deputy 
sheriffs on the border, as well as the other issues I have 
brought to your attention, our Nation will accomplish a cost-
effective and immediate solution to the burgeoning scourge of 
violence that is creeping north into our Nation.
    Along most of the border, it is a deputy sheriff who 
receives the first 911 call and responds accordingly. No matter 
how much more efficient we are made by the utilization of 
emerging technology, it is still necessary that a trained and 
experienced officer be available to respond to the identified 
threat.
    I want to express my sincere appreciation to you for having 
me here today, and I welcome any questions that you may have.
    [The prepared statement of Sheriff Jernigan appears as a 
submission for the record.]
    Chairman Kyl. Thank you, Sheriff Jernigan.
    Mr. Durham.

     STATEMENT OF LAVOYGER DURHAM, MANAGER, EL TULE RANCH, 
                       FALFURRIAS, TEXAS

    Mr. Durham. Good morning, ladies and gentlemen. My name is 
Lavoyger Durham. I am the manager of the El Tule Ranch in south 
Texas, located about 75 miles north of the Mexican border. I 
would like to thank Senator Sessions, Senator Cornyn, Senator 
Kyl, Senator Feinstein and the members of your Subcommittees 
for allowing me to appear before you this morning.
    I would also like to recognize the people in the audience 
who have traveled here from Texas in support of my testimony.
    My purpose in being here today is simple, to try to 
convince you that Federal law enforcement agencies, with the 
assistance of their State and local counterparts, must control 
illegal immigration across the Mexican border. Everyday, I see 
the reality of what is being reported on a regular basis in the 
news media. While most of those reports are fairly accurate, 
none give a complete picture of what is really happening in 
south Texas, and consequently our entire country.
    South Texas has been my family's home for three 
generations. Both my mother, who was of Mexican dissent, and my 
father, who was of Irish ancestry, were steeped in ranching 
tradition. I have been very fortunate to have been able to 
carry on this legacy for the past 45 years. But now things have 
changed. My neighbors and I are facing circumstances that can 
best be described as deplorable. We now must live with the 
constant possibility that we could be attacked or killed on our 
own properties.
    Literally thousands of illegal immigrants cross through 
south Texas on a daily basis, mostly by foot. The Border Patrol 
has told me that within just a five-mile radius of my ranch, 2 
to 300 illegal immigrants move through every night. The trail 
and tracks are there. Most are coming to fill labor shortages 
in our Nation. Many, however, have less noble ambitions, and 
many of those are other than Mexicans, or OTMS, who are 
entering this country from all over the world.
    Some are drug-runners who cut our fences so they can carry 
their backpacks full of contraband north for nationwide 
distribution. Others are members of what the news media has 
described as the most violent crime organizations in the United 
States, the El Savadoran gang known as the Mara Salvatrucha, or 
the MS-13. Still others might well be terrorists who are 
infiltrating for no other purpose than to cause death and 
destruction.
    I do not know how to adequately describe the consequences 
of our unmanaged border in south Texas. The stories are endless 
and are only getting worse. I can provide accounts of ranchers 
being fired upon, ranch security guards being beaten and held 
at gunpoint, women being threatened near their own homes by 
belligerent aliens, and youths being confronted by gangs 
dressed in dark camouflage clothing at night. These types of 
occurrences are all too common and are entirely unacceptable in 
a civilized society.
    It is also sad to report that we often find immigrants on 
our properties that are dead or dying. Whenever possible, we 
take them for medical care, but often it is too late. I 
hesitate to share photographs of deceased victims whom I have 
personally found on my property, but I think that it is 
important to communicate this reality to you.
    In my county alone, over 40 illegal immigrants are known to 
have died last year. These unfortunate and ill-prepared people 
die not only because of exposure to the harsh elements of 
blazing heat and bitter cold, but also because of encounters 
with diamondback rattle snakes and other dangers of the vast, 
rugged terrain.
    Sometimes, however, these people die at the hands of human 
smugglers, or as they are called along the border, coyotes. 
Coyotes are criminals who deal in human misery. They charge 
very large fees of thousands of dollars to smuggle unsuspecting 
immigrants across the U.S.-Mexican border, often deserting them 
far short of the destinations they had promised. In performing 
their so-called services, coyotes will leave behind the weak, 
sick or injured to die if they cannot keep up with the group. 
Sometimes, the coyotes will even kill their impaired clients 
outright so they will not be able to alert authorities.
    Coyotes now control a huge percentage of all illegal 
immigration along the Mexican border, especially among illegal 
immigrants who want to come to this country for the first time. 
They are part of the crime syndicates that have become big 
business. Some of the other witnesses today can testify to that 
fact. As inconceivable as it may be, coyotes are often equipped 
with technological devices that are equivalent or superior to 
those available to our own Border Patrol.
    What then can be done to manage the border with Mexico and 
provide for the safety and security of American citizens? First 
and foremost, the Border Patrol must be given the manpower to 
enforce the laws of the land. They must also be provided with 
the technological equipment that they need to stay ahead of 
their adversaries.
    Second, Congress must reevaluate existing immigration laws 
to determine realistically whether or not they are enforceable. 
In my opinion, the Border Patrol will never be able to control 
illegal immigration until some sort of strictly enforced guest 
worker program is implemented. Until immigrants who are 
entering this country for a productive purpose are 
distinguished from those who are entering for a destructive 
purpose, I cannot imagine how the Border Patrol could ever have 
enough resources to effectively enforce immigration laws.
    Last spring, I helped organized a meeting in south Texas, 
including law enforcement officials and policymakers from all 
levels of government who were concerned about illegal 
immigration and border security. At that meeting, our 
distinguished friend, Tobin Armstrong, who we lost to cancer 
this fall, provided us with the benefit of his wisdom on these 
subjects.
    I would like to conclude my testimony quoting some of Mr. 
Armstrong's remarks, and I quote, ``You are not going to build 
a wall around the United States to help to keep these people 
out. There is only one way to do this job and that is to pass 
legislation that provides for the people that you need to stay 
here and provides for the return of all the criminals, the 
terrorists, the deadbeats and people carrying communicable 
diseases. That is the only way it is going to work, and then 
give the ones that do stay here some kind of forge-proof 
identification card. And then anybody who employs somebody who 
does not have that card would be committing a felony and would 
be sanctioned heavily. Now, you say, well, how do you get that 
done? Well, it isn't a question of how you get it done. You 
have got to get it done,'' end of quote.
    I would like again to thank Senator Cornyn, Senator Kyl, 
Senator Sessions, Senator Feinstein and members of your 
Subcommittees for allowing me to address you this morning. I 
trust that you all agree that Federal inaction is no longer an 
option. We will help in any way we can, but ultimately we are 
counting on you for your leadership to get this job done.
    [The prepared statement of Mr. Durham appears as a 
submission for the record.]
    Chairman Kyl. Thanks very much, Mr. Durham.
    T.J. Bonner.

 STATEMENT OF T.J. BONNER, NATIONAL PRESIDENT, NATIONAL BORDER 
 PATROL COUNCIL, AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES, 
                   AFL-CIO, CAMPO, CALIFORNIA

    Mr. Bonner. Thank you, Mr. Chairman, Chairman Cornyn, 
Ranking Member Feinstein, Senator Sessions. I had the distinct 
privilege over the weekend of assembling with a group of about 
50 front-line U.S. Border Patrol agents and support personnel, 
and I wish every one of you and, in fact, every member of the 
Senate and the House of Representatives could have been there 
to hear the concerns of these people and to personally thank 
them for their dedicated service.
    I must say it is quite a contrast, the picture that they 
painted, from the one that I heard from the previous panel of 
everything is going along smoothly and we are going to get 
control of this border. When they launched the initiative about 
a dozen years ago to gain control of the border, they claimed 
they were going to do it inch by inch. To date, they claim that 
they have control of 150 miles of our southwest border. Let's 
take that at face value. At that rate, it will take 400 years 
to gain control of our southern and northern borders. To put 
that in historical perspective, Jamestown 400 years ago was 
still a year off. We don't have the luxury of waiting 400 years 
to gain control of our borders. This is something we need to do 
now.
    Violence along our borders was one of the foremost concerns 
raised by these agents and the support personnel, because they 
are the victims of this violence, too. We have civilian 
employees who are not agents who go down to work on the fence, 
to work on that equipment, and they get rocked just as heavily 
as our agents do. They get shot at the same way our agents get 
shot at. The difference is they are not armed.
    Violence is an incredible problem. Incursions by the 
Mexican military--yes, the Mexican military--are a problem. If 
it has webbed feet, feathers, waddles and quacks, it is a duck. 
For the government of Mexico to claim that some of these 
incursions were not their soldiers is just incredulous. In 
fact, when Chief Aguilar was the chief of the Tucson Border 
Patrol sector, he had these cards printed up, ``Military 
Incursion,'' and it talks about how to respond when the Mexican 
military is making incursions, essentially telling the agents 
to get out of the area as quickly as possible.
    We have had documented instances where the Mexican military 
has crossed the border, has shot at our U.S. Border Patrol 
agents, and then the government of Mexico denies any 
involvement. That claim is simply incredible. And now they are 
claiming that these are the cartels masquerading as the Mexican 
military to somehow sour relations between the two nations. 
That would make absolutely no sense. Why would the cartels do 
anything to bring more attention, more law enforcement, perhaps 
even the U.S. military down along the border? That would only 
make their job of smuggling drugs and people across the border 
that much more difficult.
    And make no mistake about it, the cartels are actively 
involved in smuggling people now. That trade has become so 
lucrative. Where it used to be at the beginning of the 
crackdown $2 to $300 to cross that border, it is now ten times 
that amount. So the cartels have squeezed out the small-time 
operations and have gained control over many of these smuggling 
operations and are charging exorbitant amounts of money which 
people are willing to pay.
    The only meaningful solution to dealing with this is to go 
after the root of the problem, recognize that the overwhelming 
majority of people come to the United States looking for work. 
We have to cutoff that access to people having jobs in the 
country who have no right to be here. The only way to do that 
is to have a single counterfeit-proof document, not two 
documents, one to establish employment eligibility and another 
to establish identity, because then you will just have an 
overnight explosion of counterfeit documents. And the GAO 
warned about that with the current basic pilot program. It has 
to be a single counterfeit-proof document incorporating 
identity and employment eligibility, and it has to be provided 
to everyone who wants a job in this country, not just to 
immigrants, but to U.S. citizens as well. Otherwise, illegal 
aliens will claim that they are U.S. citizens and therefore 
don't need the card.
    With respect to the Mexican military incursions, other 
steps need to be taken as well. Obviously, we need to augment 
the size of the Border Patrol, but I implore you to stop the 
foreign aid going to Mexico for the purpose of counter-
narcotics interdiction. It is not being used for that purpose. 
It is being used against our officers, against local sheriffs 
and law enforcement.
    And the other recommendation is to have the U.S. military 
on standby to respond to these incursions, not to enforce our 
immigration laws, but to deal with these incursions. Border 
Patrol and local law enforcement are not equipped and not 
trained to deal with military engagements.
    I thank you for the opportunity to present the views of the 
front-line agents and I welcome any questions you might have.
    [The prepared statement of Mr. Bonner appears as a 
submission for the record.]
    Chairman Kyl. We appreciate your testimony. We have got 
some real experts here, law enforcement experts on the border 
that have been working at it for decades--Mr. Bonner, with 
communication with agents all along the border, who gets 
reports of what is going on all the time on a real-time basis, 
and a rancher who is living this and has lived it all your 
life, I gather, Mr. Durham, at least so far.
    Mr. Durham. Yes, sir.
    Chairman Kyl. I remember former Senator Simpson was up 
celebrating his 90th birthday in Cody, Wyoming, and a reporter 
said, well, have you lived here all your life? He said not yet. 
So I should have qualified that.
    Let me start, Mr. Bonner, with you. You said the value of 
this human cargo is ten times as much. That would make it about 
$2,000 per illegal immigrant. Is that about what they pay now?
    Mr. Bonner. About $2 to $3,000, and we are talking people 
from Mexico. The farther away you are from that southwest 
border, the higher the charge. For people from China, for 
example, it can $40 to $50,000. And you may think, well, where 
do they get that money? They don't have that money. They sell 
themselves into indentured servitude 7 to 10 years, generally, 
where they work for nothing before they become a free person. 
This is human slavery.
    Chairman Kyl. So there is a value to the number of illegal 
immigrants, which is one of the reasons why the coyotes and 
smugglers are willing to commit violence to protect that cargo.
    Mr. Bonner. Absolutely.
    Chairman Kyl. Now, you mentioned the need for an 
identification card, and you made a very important point that I 
would like to ask you to repeat because it is something that 
Senator Cornyn and I have tried to persuade our colleagues of, 
but sometimes I am afraid we have not succeeded in doing it.
    It is easy enough to give a document to a temporary worker, 
a person who is willing to volunteer to sign up to be a 
temporary worker, like a laser visa, for example. And they are 
going to carry that with them and when they seek employment, 
they are going to display that and become employed. But as you 
pointed out, there are millions of people in this country 
illegally who are trying to work illegally and will claim to be 
a United States citizen and have plenty of forged documents in 
their possession to back up that claim.
    So why would everybody who gets a job, therefore, need to 
have some kind of worker identification number and status?
    Mr. Bonner. Quite simply for the reason you point out, 
Senator, because otherwise people just claim that they were 
born here or that they have a legal right to be here. If we 
don't close the back door to illegal immigration, no guest 
worker program will be utilized by any employer or employee in 
their right mind.
    As an employer, it means that you have to then pay at least 
minimum wage, that you have to pay all of the taxes, when your 
competitor is not doing that and they are driving you out of 
business. And as an employee, why would you volunteer for this 
program which identifies you as a person who should leave the 
country within a set period of time, when if you cross the 
border illegally, you can stay here as long as you want and 
still get a job?
    Chairman Kyl. So would it be, in your opinion, to say that 
the two--and I will ask all of you this--the two critical 
components to ensure that we can eventually stop illegal 
immigration in the country are, No. 1, to control the border 
and, No. 2, to have a worker verification system that works and 
will be enforced?
    Mr. Bonner. Yes.
    Chairman Kyl. If you any of you have a different opinion, 
let me know, but I want to ask Sheriff Dever one question 
before my time runs out. You talked about the need to consider 
local consequences to Federal action. Give me some examples of 
some things that we need to do a better job of at the Federal 
level when we take action here that can have an impact on you 
and your operations and the other folks in a place like Cochise 
County, Arizona, for example.
    Sheriff Dever. Thank you, Senator. A couple of things. One 
is when there is increased Federal enforcement activity--it was 
mentioned earlier that 10 percent of the people who are 
apprehended have criminal records in this country. Many of them 
have active warrants. Those people are then transported to a 
county jail which the sheriffs maintain and we begin to incur 
costs at that point. There are extradition charges. Very often, 
they have medical issues to be dealt with that the county ends 
up paying. So just the increased enforcement activity alone 
creates that kind of a bottleneck in our already overwhelmed 
jails, where we have no bed space.
    But another example is roadside checkpoints. You know, when 
the Border Patrol sets those up on a temporary or permanent 
basis and they do not have adequate resources to patrol and 
work and protect the perimeters of those checkpoints and the 
areas in between, then the consequences of that fall to us. 
People start circumventing the checkpoint and they drive across 
pastures and through fences, and traverse people's backyards. 
So the number of our calls for service just spike incredibly.
    Those are just a couple of examples, but each and every 
strategy again has some kind of a--probably the biggest ones 
were Operation Gatekeeper and Hold the Line in San Diego and El 
Paso that funneled all these illegals outside of those two 
transportation hubs into more rural areas. It was billed 
initially as an unintended consequence of that strategy. 
Clearly, it was a planned part of the strategy to force them 
into the area in order to discourage them from crossing. That 
didn't happen.
    Dead bodies. Local mortuaries have refused to continue to 
go pick those up, and so it falls to the sheriff to go retrieve 
those. Each one of those cases has to be treated as a homicide 
investigation. So there are all those additional costs that we 
incur. We are already extremely overburdened with those costs.
    287(g) was mentioned earlier. That is all well and 
wonderful, but you can only work people so many hours of 
overtime before they just can't work anymore. It doesn't make a 
whole lot of sense to be spending a lot of overtime and 
expending fuel when you can put that money into full-time 
employees that would better and more permanently address the 
problem.
    Chairman Kyl. Thank you. I am sure you could go on and list 
40 different things, but those are good examples and I 
appreciate that very much.
    Senator Feinstein.
    Senator Feinstein. Thank you very much. Just in response to 
the sheriff, Operation Gatekeeper does work in California, and 
to me it has shown me that if you are prepared to put enough 
Border Patrol agents out there in the right way, it works.
    Now, I will agree that it was an inadvertent situation that 
pushed the illegal immigration further east, but I don't want 
you to think that Operation Gatekeeper has not worked, because 
I was just on the border this past week. It is a very different 
place in California than it was in the early and mid-1990's. So 
I was very pleased to see that.
    Mr. Bonner, let me ask you a question. Chief Aguilar 
commented that presently the Border Patrol is at 11,300. In 
your judgment, what would it take to bring it to a level that 
we could say, first, the southwest border is reasonably in 
control, and then second what it would take to say both 
borders, Canadian and southwest, are in reasonable control?
    Mr. Bonner. It really depends on whether you are going to 
turn off the employment magnet. If you don't, I would say you 
could put several million Border Patrol agents along those 
borders and you----
    Senator Feinstein. I don't understand what you mean by the 
employment magnet.
    Mr. Bonner. In other words, make it impossible to get a job 
in this country unless you have a right to work in this 
country, whether you were born in the United States or given a 
legal right to work here. As long as illegal aliens can come 
here and get employment, they will continue to come here. And 
right now what we have is a revolving door. Personally, I have 
caught the same group of people four times in one 8-hour shift.
    Senator Feinstein. Let me ask you this. Do you think that a 
guest worker program is a magnet to illegal immigration?
    Mr. Bonner. I think that the ability to get a job in the 
United States without proper documentation, or however you get 
a job in the United States, is a magnet. You have people who 
are making, on average, in Mexico four dollars a day. They can 
come north, earn 20 to 50 times that much doing unskilled work. 
Of course, they are going to come. We can't blame them for 
coming across. You and I would do the same thing if we were in 
their shoes. But until that magnet is turned off, we can throw 
all the resources we want to at that problem and it will not 
prevent impoverished, hungry people from coming across the 
border looking for work.
    Senator Feinstein. Where I am going with the question on 
the Border Patrol is that we have been trying to increase the 
Border Patrol by about 1,000 agents a year, and I am trying to 
find what number and I suspect the number rests between 15 and 
20,000. Would you concur with that or do you have another 
number?
    Mr. Bonner. I think we can do more. I think that reasonably 
a law enforcement agency can absorb no more than 25 percent of 
its total force in any given year, and that is pushing the 
limit. But I think we should do----
    Senator Feinstein. No, no. I am saying what should we aim 
for, the gross numbers of the Border Patrol.
    Mr. Bonner. I believe we should be aiming for that 25 
percent for the near term until we can get to----
    Senator Feinstein. In terms of gross numbers of Border 
Patrol.
    Mr. Bonner. The overall number?
    Senator Feinstein. Overall number.
    Mr. Bonner. Assuming that you are willing to crack down at 
the worksites, I think that overall you would probably need 
about 25,000 Border Patrol agents, maybe 30,000, to deal with 
the criminal elements that would be left, that other 2 percent 
of what is crossing the border.
    Now, we are only catching a fraction of what is crossing 
the border now, perhaps 25, 33 percent. But rather than dealing 
with millions of people, we would be dealing with thousands of 
criminals and terrorists. And I think that along with local law 
enforcement assistance, we could do it with about 25,000.
    Senator Feinstein. Now, you mentioned that you believe that 
the so-called military intrusions were actually military 
intrusions rather than anybody masquerading in false uniforms 
with false equipment. Do you have any evidence of that that you 
could submit to us?
    Mr. Bonner. I have no evidence other than eyewitness 
accounts. I mean, obviously we have evidence of the incident in 
Santa Teresa, New Mexico, where we captured nine Mexican 
soldiers who were firing at their counterparts. There were 
actually two Humvees in that incident. We captured nine and 
about another seven were firing at our agents. We did not 
capture them. Within hours, they were sent back to Mexico with 
their weapons, with their Humvee.
    Senator Feinstein. And they were validated as Mexican 
military?
    Mr. Bonner. They were bona fide--yes, they had the 
credentials, and Mexico acknowledged that they were their 
soldiers.
    Senator Feinstein. And what reason did they give?
    Mr. Bonner. Well, they claimed that they thought that we 
were trespassing in their country. But I just find it 
unimaginable that the United States would act the same way if 
we believed that other law enforcement agencies had trespassed 
into our country. And they could not mistake us for smugglers, 
as they claimed, because we were in marked vehicles with the 
emergency lights activated. You can't buy those at a swap meet, 
and you can't buy a military Humvee such as was used in the 
January 23rd incident in Hudspeth County. You can't buy those 
at swap meets either. It is not a Hummer. It is a military 
Humvee.
    Senator Feinstein. Thank you, Mr. Bonner. Thank you, Mr. 
Chairman.
    Chairman Kyl. Thank you, Senator Feinstein.
    Senator Cornyn.
    Chairman Cornyn. Thank you, Senator Kyl.
    I want to say thank you to each of you for being here 
today, but particularly Sheriff Jernigan and Mr. Durham for 
your participation. I think it is important for my colleagues 
from other parts of the country to hear your testimony. And I 
assure you they will be taking due note of what you have to say 
and what you have had to offer.
    I think it is another unfortunate sign of the Federal 
Government's failure, Sheriff Jernigan, to secure our border 
that has caused our border sheriffs in Texas to have to band 
together, all 16 of you, to try to do what the Federal 
Government has not done. And Governor Perry, I know, has 
dedicated some funding to that effort, but I would like to see 
more resources being made available to our local law 
enforcement agencies that are willing to help support the 
primary Federal role of border security. So I welcome all of 
you here and thank you for your dedication and your service.
    Let me ask you first, Sheriff, you have a long and 
distinguished career in law enforcement, having worked with the 
Treasury Department and the U.S. Customs Service before you 
came sheriff of Val Verde County. I was looking at one of the 
attachments to your statement and, you know, people, I think, 
have this image that the only people coming across the border 
are people who want to come here to work. And certainly that is 
true, but it is not only people who want to come here to work.
    Certainly, as you indicate in Attachment 3--and it is 
people coming across from countries other than Mexico by 
country from October 2003 to June 30, 2004--for example, it 
indicates that 10 came from Iran, not exactly a friend of this 
country and a country that is in the process of making, if they 
don't already have them, nuclear weapons, a state sponsor of 
international terrorism.
    We have seven from Iraq, if I am reading this correctly, 
where the central war on terrorism is being fought today by our 
troops against foreign fighters and other jihadists. We have 
eight on this from North Korea, another self-avowed enemy of 
the United States and one that in all probability already has 
nuclear weapons.
    Can you perhaps expand on why you think the threat is 
different than it has been in the past to this Nation because 
of facts like that and other concerns?
    Sheriff Jernigan. Senator, I have been on this border for 
approximately 30 years. I have worked all up and down the 
border, from San Diego to Brownsville. Thirty years ago, even 
15 years ago, just as my colleague Sheriff Dever mentioned 
earlier, we were dealing with a much different class of people. 
They were very docile, very submissive. At worst, they would 
turn and flee from you and flee back into Mexico.
    But now my deputies and the Border Patrol are facing a 
different class of individual and groups coming across that are 
much more combative when confronted and stopped by my deputies. 
Generally, the deputies are operating alone out in the field. 
They come upon groups of 20, 30, 50 at a time. And they make it 
known to the deputies that they are going through; we are not 
stopping. You are not going to stop us; we are going.
    Ten years ago, 15 years ago, like I said, they would 
literally flee back to Mexico upon simply being asked, who are 
you, where are you going. No more. They are determined they are 
going north one way or the other. Come hell or high water, they 
are going north.
    Chairman Cornyn. Well, it sounds like if nothing else, 
there is at least an attitude of entitlement on the part of 
people coming into the country.
    Sheriff Jernigan. Absolutely, absolutely, Senator.
    Chairman Cornyn. And obviously we have talked about the 
weapons, the assaults on Border Patrol and the like.
    Mr. Durham, I appreciate your being here and representing 
the ranching community in south Texas that is directly impacted 
by this, and I especially appreciate your invoking the name of 
Tobin Armstrong. His daughter and granddaughter are here, I 
know, and they appreciate your kind words.
    I recall him saying what you said, and that is that we need 
to separate the criminals and potential terrorists and those 
engaged in drug activity from people who want to come here to 
work. And you indicated that you believe that a guest worker 
program, what I would call a temporary worker program, is an 
essential component of getting security along our border. Now, 
that is a little counterintuitive, I think, to some people, but 
it makes perfect sense to me.
    If we know who is coming across to work, if we have 
screened them, if they have been provided with this 
counterfeit-proof or as close as we can create document that 
can be verified and let our law enforcement officials focus on 
the bad guys, it seems to me we have made their job easier, not 
harder.
    Would you agree with that?
    Mr. Durham. Yes, I would. Thank you, Senator. You know, 
like Mr. Wayne Jernigan was talking about here, the class of 
people--it used to be that people that would come across were 
mostly from the interior of Mexico, San Luis Potosi, Michoacan, 
and so on down the line. And they were just honest people. You 
would invite them to your house, you would feed them, you would 
do whatever to help them out and stuff.
    And then a little different class of people started coming 
across. They are mainly just across the river and they would 
come up here for a couple of weeks and figure out the game, and 
so on down the line, and then they would go back and get their 
buddies, and so on.
    Now, you don't know what is coming across. You know, 50 
percent of the people that you catch now around Falfurrias are 
OTMs, other than Mexicans, and stuff, and the count has just 
quadruples and it just keeps on increasing. Like I said in my 
statement, there are 2 or 300 coming through there every night, 
and the tracks and the trails indicate it and the Border Patrol 
is just being overpowered. I can go up there and show them the 
trails and the trash, and fences being cut and cattle gates 
being opened and all kinds of things.
    At that meeting where Mr. Armstrong was there, he kind of 
chaired the meeting anyhow, and I had 75 to 100 people there, 
law enforcement officers from all over the place. And there 
were anywhere between 4 and 5 million acres represented there 
between owners and managers, and I made it a point there that 
the meeting was not going to be, one, criticizing the Border 
Patrol in any way; two, that we weren't going to tell any 
horror stories because everybody as far as the ranching 
community down there has lots of horror stories and that would 
take up the whole meeting, period. So, yes, I agree with Tobin 
as far as the guest worker program and trying to have 
identification, a forge-proof card that makes you work, and 
work legally.
    Chairman Cornyn. Thank you, Mr. Chairman.
    Chairman Kyl. I really appreciate your testimony, Mr. 
Durham.
    Senator Sessions.
    Senator Sessions. Sheriff Jernigan and Sheriff Dever, have 
you seen this change in terms of the criminal element that is 
involved in people coming across? I have been told that we have 
had a real surge in custody of individuals in Alabama that have 
criminal histories or have been involved in crime.
    Is something changing out there from your observation about 
who may be coming over?
    Sheriff Jernigan. Absolutely. More and more of them that 
are coming across do have criminal histories, considerable, 
lengthy criminal histories, not only in our own country, but in 
whatever country they are coming from.
    If I may, I would like to expand on something that Mr. 
Durham mentioned a while ago, if I may.
    Senator Sessions. We have just got a minute, but go ahead, 
please.
    Sheriff Jernigan. Crime-stoppers. Do you know what crime-
stoppers is in rural America along the border? You know, the 
ranchers at least in my area go to Wal-Mart or HEB and buy 
water, food, and plant it around their house outdoors in the 
hopes that as the aliens come through their ranch, they won't 
break into their home when they are away from home. They 
actually leave the food and water planted around their home. 
That has become a way of life along the border.
    It didn't used to be that way. It used to be you could 
leave your keys in your truck. You know, you didn't worry about 
it, or leave your rifle hanging in the back of the truck 
overnight. No more. That is what crime-stoppers has become in 
rural America. It is a sad commentary.
    Senator Sessions. Sheriff Dever.
    Sheriff Dever. The short answer to your question, Senator, 
is absolutely. Even the general nature or character of the 
illegals themselves is extremely controversial. You know, 
agents, deputies and law enforcement officers in general have 
to be on their guard every moment that they are in contact with 
groups, where they used to feel relatively comfortable that 
they have just encountered some poor, hapless souls wandering 
through the countryside. The number of assaults on Border 
Patrol agents, deputy sheriffs, and the number of hostile 
confrontations has increased dramatically.
    Senator Sessions. With regard to 287(g), I believe, Sheriff 
Dever, you made some comment that that is not the full answer 
to the question. Was that you that made reference to that?
    Sheriff Dever. Yes, sir.
    Senator Sessions. It is a training program that can be 
helpful. What happens if your deputies arrest people? Down 
there on the border, do you have a relationship with the Border 
Patrol so that they would come and apprehend somebody? What if 
they had been presumably in the country for a while and not 
right on the border? Would they come and get them, and are you 
compensated in any way for the expense that you may have gone 
to to make this transfer?
    Sheriff Dever. We currently do not arrest people for 
immigration violations. That is still a big, controversial 
issue being worked out in the courts, and there have been 
several bills introduced to provide authority for local law 
enforcement to do that. But those that we do house and 
incarcerate are aliens who have committed crimes against the 
State--burglary, assault, theft or something like that.
    The SCAAP fund, the State Criminal Alien Assistance 
Program, original allocation was $585 million, five, 6 years 
ago, Senator, something like that. That has been reduced over 
the years. It was eliminated from the President's budget the 
last 2 years. Congress restored $200 million the first year and 
then I think $300 million the next. That reimburses sheriffs, 
counties, for incarcerating criminal aliens under certain 
criteria, not all of them. Only certain ones meet the criteria 
and the criteria has become so limited that it is a very small 
percentage of them that are reimbursed, but about ten cents on 
the dollar.
    Senator Sessions. Well, you know, this is a Federal 
problem, Federal, national issue. When local law enforcement 
are prepared to help and participate voluntarily, they ought to 
be compensated, don't you think, for the expenses?
    Sheriff Dever. I couldn't agree with you more, sir.
    Senator Sessions. I am singing your song on that.
    Sheriff Dever. Absolutely. That is what we are here for.
    Senator Sessions. Well, they really should. I wrote a law 
review article. I never thought I would be in the U.S. Senate, 
and I really never thought I would write a law review article 
for the Stanford University School of Law, but it was on the 
power of local law enforcement. For those who come across the 
border illegally, even the Ninth Circuit concludes that local 
law enforcement does have the authority to detain.
    There is some question based on a Ninth Circuit ruling that 
local law enforcement can detain for overstays. So the lawyers 
for the sheriff departments and the mayors and the county 
commissions say, you know, this is scary; I am not sure and we 
might get sued, and they are not going to come and get them 
anyway, so just forget it.
    Isn't that basically what is happening, Mr. Bonner?
    Mr. Bonner. Sadly, yes.
    Senator Sessions. And so what we need to do, if we are 
serious about this thing, is give, as we have the power to do, 
authority to law enforcement officers to detain for a short 
period of time until people can be handed over those who are 
here illegally.
    Wouldn't you agree, Mr. Bonner, that that would help?
    Mr. Bonner. Absolutely, it would help. We welcome all the 
help we can get. Obviously, we are overwhelmed down at the 
border, and it shouldn't be a 50-yard dash and you are home 
free. People who have broken the laws should have every 
expectation that someday somehow is going to tap them on the 
shoulder and hold them accountable, and that is not having.
    Senator Sessions. And that is sort of a question of--would 
you say it is almost a test of our will as a Congress and a 
Nation that if we are not willing to do that, then we are 
really not serious about having a lawful system?
    Mr. Bonner. When you look around the country and see a 
minimum of 12 million people in this country illegally, it is 
obvious that we are not serious about this problem.
    Senator Sessions. Just briefly, you mentioned that we need 
to control the border and we need to have workplace 
enforcement. As I have looked at this more and more, I have 
become somewhat optimistic. If we increase the Border Patrol 
officers and we control the border and we build fences where we 
needed and we do other things that get us to that point of 
enforcement, and then a workplace, do you think we could reach 
a tipping point and we could be more successful than a lot of 
people even think today?
    Mr. Bonner. This problem is absolutely solvable. We could 
put the human smugglers out of business almost overnight if we 
take away the reason that people are coming here, which is 
jobs. Why would anyone in their right mind pay $3,000 and risk 
their life crossing through the desert if at the end of that 
journey no one will give them a job? They would stay home, and 
people who are here illegally now would go home because four 
dollars a day may not sound like much, but it is more than 
nothing. And if you can't get a job, you are not earning a 
penny.
    Senator Sessions. Thank you. Some from around the world are 
dangerous elements, as we have noted, and that is important for 
national security. But, fundamentally, I would agree with that.
    Thank you, Mr. Chairman.
    Chairman Kyl. Thank you, Senator Sessions.
    There are a couple of things that are kind of subtle that I 
feel a need to express here. Mr. Durham didn't come here to 
beat on a big drum and blow a bugle and complain, but he was 
invited to come here and share experiences. And I gather there 
is almost a reluctance in the way you have described it; it is 
certainly more in disappointment than in anger.
    You have got two very fine sheriffs here. These guys put 
their lives on the line everyday. They are confronted with 
danger. It has gotten very, very hard for them. I don't know 
Sheriff Jernigan, but I know Sheriff Dever. He works very, very 
well with all of the different Federal and State law 
enforcement folks. They have a very good relationship. They are 
trying to confront these problems together from a very 
professional law enforcement point of view. They have all of 
these problems, and yet they are not trying to exaggerate 
anything. T.J. Bonner's folks see this stuff everyday and they 
could easily get out there and exaggerate, but they have to 
live with it, and they don't.
    What is occurring on the ranches--Mr. Durham, I hear this 
from folks in Arizona all the time. I know that Sheriff Dever 
has, too. It didn't used to be that way. Of course, it didn't 
used to be illegal to hire an illegal immigrant. It was illegal 
to harbor somebody that came into the country illegally. And 
people did help folks and there was no problem with it.
    My sister and brother-in-law used to live in Cochise 
County, and he worked out in one of the game refuges and when 
he first went down there, it was the same way. And by the time 
they left, they couldn't wait to leave because it was 
dangerous. There were bad actors coming through there all the 
time.
    The purpose of this hearing today was to remind folks that 
it isn't just people coming across for a better life, but bad, 
dangerous, nasty people, with an increase in violence, with a 
108-percent increase in assaults on the officers, with a huge 
increase in the number of criminals coming across. And whatever 
we do about the illegal immigrants, we are going to want to 
control the border to stop that criminal behavior and those 
criminals from coming across.
    But as Mr. Bonner points out, one way to do that is, in 
addition to getting control of the border, having a very firm 
but fair way to check employee eligibility so that only legal 
people, whether through a temporary work program or as citizens 
or some other kind of visa, would be able to work here. Remove 
that and the value of that human smuggling goes way, way down. 
Instead of $2 or $3,000, it loses most of its value. So I 
wanted to express my appreciation to all of you.
    We do need to increase SCAAP funding. The States, by the 
way, need to support the counties more, because counties are 
political subdivisions of the States. But the Federal 
Government needs to provide support there, as well.
    Just primarily to the two sheriffs here, and to all of you, 
when illegal immigrants are actually apprehended or held or 
detained, does ICE respond to the need to take custody and 
return them to the border as much as it needs to, Sheriff 
Dever?
    Sheriff Dever. Mr. Chairman, they do. That wasn't always 
the case, but we are in a unique situation at least where I am 
because we are right on the border. We have the largest Border 
Patrol station on the entire southwest border in Douglas, 
Arizona, and so we have pretty immediate access. But I can 
speak to my colleagues just to the north and the answer to that 
question is no.
    Chairman Kyl. So where they have the resources, they can 
get it done. They just need to tell us what kind of resources 
they need so we can try to provide it.
    Sheriff Jernigan, same thing?
    Sheriff Jernigan. That is very correct, sir.
    Chairman Kyl. Mr. Durham, you have seen this.
    Mr. Durham. Yes, but we don't communicate too much with 
ICE. As you well know, we have got two main highways, 77 that 
goes down to Brownsville, Texas, and 281 that goes to McAllen, 
and each one of those stations has their Border Patrol stations 
on them. We just happen to be in the walk-around as far as all 
these illegals coming and walking around. The coyote brings 
them from the border, dumps them before they get to the Border 
Patrol station, and they walk around. So all we deal with is 
the Border Patrol.
    Chairman Kyl. Well, again I want to personally express my 
appreciation to all of you for your testimony. I think it is 
enlightening. It is our job now to amplify this to our 
colleagues and explain some of the problems to them so that 
they will join us in trying to respond urgently to these needs 
by providing the resources necessary, the legal authority, and 
the other changes that are necessary to our laws to be able to 
solve the problem in both of the ways that T.J. Bonner 
identified. We are both committed to that. You are probably 
aware that we have cosponsored legislation together that tries 
to solve the problem in the way that you have recommended.
    Senator Cornyn.
    Chairman Cornyn. Well, Mr. Chairman, thank you for working 
with my Subcommittee. Senator Kyl and I have worked together 
and had a series of hearings which I think have helped shined 
some light on and better inform all of our colleagues about the 
challenge we have and the responsibility we have to step up and 
make up for years of inaction.
    It is going to require an extensive commitment, financial 
and otherwise, but this is a Federal responsibility. We ought 
to be grateful we have local law enforcement and Federal law 
enforcement agencies that are seriously undermanned because of 
lack of proper funding, but we have a lot of wonderful people 
who are willing to help and step up, and we appreciate that 
very much. But we are going to have to make a significant 
investment in human resources and technology in order to 
address this problem and provide support to local law 
enforcement, and training as well.
    But I think in the end, we have to have credible 
deterrence, and I think what Senator Kyl talked about in terms 
of what we do at the border, what we do in the interior, what 
we do at the workplace, is going to establish a credible 
deterrence so people don't start out on that long journey 
unless they have some reason to believe that they are going to 
qualify to work within the law. That is what we don't have now 
and what we need sorely is that deterrence.
    So thank you for each of you being here and your 
contribution. I thank the rest of the Border Sheriff's 
Coalition from Texas for all of your good work, and hopefully 
we can say with some credibility that help is on the way.
    Sheriff Jernigan. Thank you. We thank you for your time and 
interest.
    Chairman Kyl. You bet.
    I also want to mention there are no people more committed 
to resolving this problem than Senator Cornyn, than Senator 
Sessions, whom you heard. I love the way he puts things; he 
gets right to the heart of the matter. Senator Feinstein has 
been my Ranking Member ever since I came to the Senate and is 
very, very committed to working on these issues. The fact is 
that we have got a joint session of Congress over in the House 
of Representatives right now, or others of our colleagues would 
be here. So don't take the absence of other Senators as a lack 
of interest.
    We will attack this problem, and one reason I have some 
confidence we will be successful is because we have had the 
testimony from you all, and I know that we will have your 
backing in trying to get this situation under control. I want 
to thank you all very, very much for what you have done here 
today.
    This hearing is adjourned.
    [Whereupon, at 11:45 a.m., the Subcommittees were 
adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC] [TIFF OMITTED] T8338.001
    
    [GRAPHIC] [TIFF OMITTED] T8338.002
    
    [GRAPHIC] [TIFF OMITTED] T8338.003
    
    [GRAPHIC] [TIFF OMITTED] T8338.004
    
    [GRAPHIC] [TIFF OMITTED] T8338.005
    
    [GRAPHIC] [TIFF OMITTED] T8338.006
    
    [GRAPHIC] [TIFF OMITTED] T8338.007
    
    [GRAPHIC] [TIFF OMITTED] T8338.008
    
    [GRAPHIC] [TIFF OMITTED] T8338.009
    
    [GRAPHIC] [TIFF OMITTED] T8338.010
    
    [GRAPHIC] [TIFF OMITTED] T8338.011
    
    [GRAPHIC] [TIFF OMITTED] T8338.012
    
    [GRAPHIC] [TIFF OMITTED] T8338.013
    
    [GRAPHIC] [TIFF OMITTED] T8338.014
    
    [GRAPHIC] [TIFF OMITTED] T8338.015
    
    [GRAPHIC] [TIFF OMITTED] T8338.016
    
    [GRAPHIC] [TIFF OMITTED] T8338.017
    
    [GRAPHIC] [TIFF OMITTED] T8338.018
    
    [GRAPHIC] [TIFF OMITTED] T8338.019
    
    [GRAPHIC] [TIFF OMITTED] T8338.020
    
    [GRAPHIC] [TIFF OMITTED] T8338.021
    
    [GRAPHIC] [TIFF OMITTED] T8338.022
    
    [GRAPHIC] [TIFF OMITTED] T8338.023
    
    [GRAPHIC] [TIFF OMITTED] T8338.024
    
    [GRAPHIC] [TIFF OMITTED] T8338.025
    
    [GRAPHIC] [TIFF OMITTED] T8338.026
    
    [GRAPHIC] [TIFF OMITTED] T8338.027
    
    [GRAPHIC] [TIFF OMITTED] T8338.028
    
    [GRAPHIC] [TIFF OMITTED] T8338.029
    
    [GRAPHIC] [TIFF OMITTED] T8338.030
    
    [GRAPHIC] [TIFF OMITTED] T8338.031
    
    [GRAPHIC] [TIFF OMITTED] T8338.032
    
    [GRAPHIC] [TIFF OMITTED] T8338.033
    
    [GRAPHIC] [TIFF OMITTED] T8338.034
    
    [GRAPHIC] [TIFF OMITTED] T8338.035
    
    [GRAPHIC] [TIFF OMITTED] T8338.086
    
    [GRAPHIC] [TIFF OMITTED] T8338.087
    
    [GRAPHIC] [TIFF OMITTED] T8338.088
    
    [GRAPHIC] [TIFF OMITTED] T8338.036
    
    [GRAPHIC] [TIFF OMITTED] T8338.037
    
    [GRAPHIC] [TIFF OMITTED] T8338.038
    
    [GRAPHIC] [TIFF OMITTED] T8338.039
    
    [GRAPHIC] [TIFF OMITTED] T8338.040
    
    [GRAPHIC] [TIFF OMITTED] T8338.041
    
    [GRAPHIC] [TIFF OMITTED] T8338.042
    
    [GRAPHIC] [TIFF OMITTED] T8338.043
    
    [GRAPHIC] [TIFF OMITTED] T8338.044
    
    [GRAPHIC] [TIFF OMITTED] T8338.045
    
    [GRAPHIC] [TIFF OMITTED] T8338.046
    
    [GRAPHIC] [TIFF OMITTED] T8338.047
    
    [GRAPHIC] [TIFF OMITTED] T8338.048
    
    [GRAPHIC] [TIFF OMITTED] T8338.049
    
    [GRAPHIC] [TIFF OMITTED] T8338.050
    
    [GRAPHIC] [TIFF OMITTED] T8338.051
    
    [GRAPHIC] [TIFF OMITTED] T8338.052
    
    [GRAPHIC] [TIFF OMITTED] T8338.053
    
    [GRAPHIC] [TIFF OMITTED] T8338.054
    
    [GRAPHIC] [TIFF OMITTED] T8338.055
    
    [GRAPHIC] [TIFF OMITTED] T8338.056
    
    [GRAPHIC] [TIFF OMITTED] T8338.057
    
    [GRAPHIC] [TIFF OMITTED] T8338.058
    
    [GRAPHIC] [TIFF OMITTED] T8338.059
    
    [GRAPHIC] [TIFF OMITTED] T8338.060
    
    [GRAPHIC] [TIFF OMITTED] T8338.061
    
    [GRAPHIC] [TIFF OMITTED] T8338.062
    
    [GRAPHIC] [TIFF OMITTED] T8338.063
    
    [GRAPHIC] [TIFF OMITTED] T8338.064
    
    [GRAPHIC] [TIFF OMITTED] T8338.065
    
    [GRAPHIC] [TIFF OMITTED] T8338.066
    
    [GRAPHIC] [TIFF OMITTED] T8338.067
    
    [GRAPHIC] [TIFF OMITTED] T8338.068
    
    [GRAPHIC] [TIFF OMITTED] T8338.069
    
    [GRAPHIC] [TIFF OMITTED] T8338.070
    
    [GRAPHIC] [TIFF OMITTED] T8338.071
    
    [GRAPHIC] [TIFF OMITTED] T8338.072
    
    [GRAPHIC] [TIFF OMITTED] T8338.089
    
    [GRAPHIC] [TIFF OMITTED] T8338.073
    
    [GRAPHIC] [TIFF OMITTED] T8338.074
    
    [GRAPHIC] [TIFF OMITTED] T8338.083
    
    [GRAPHIC] [TIFF OMITTED] T8338.084
    
    [GRAPHIC] [TIFF OMITTED] T8338.085
    
    [GRAPHIC] [TIFF OMITTED] T8338.075
    
    [GRAPHIC] [TIFF OMITTED] T8338.076
    
    [GRAPHIC] [TIFF OMITTED] T8338.077
    
    [GRAPHIC] [TIFF OMITTED] T8338.078
    
    [GRAPHIC] [TIFF OMITTED] T8338.079
    
    [GRAPHIC] [TIFF OMITTED] T8338.080
    
    [GRAPHIC] [TIFF OMITTED] T8338.081
    
    [GRAPHIC] [TIFF OMITTED] T8338.082
    
                                 <all>

</pre></body></html>
